<html>
<title> - THE IMPLEMENTATION OF THE DECISION TO OPEN ALL GROUND COMBAT UNITS TO WOMEN</title>
<body><pre>[Senate Hearing 114-590]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-590

 THE IMPLEMENTATION OF THE DECISION TO OPEN ALL GROUND COMBAT UNITS TO 
                                 WOMEN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 2, 2016

                               __________

         Printed for the use of the Committee on Armed Services






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.fdsys.gov/

                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-850 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   
   
   
   
   
   
   
   
   
   
   
  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)















                            C O N T E N T S

                               __________

                       tuesday, february 2, 2016

                                                                   Page

The Implementation of the Decision to Open All Ground Combat 
  Units to Women.................................................     1

Mabus, Honorable Raymond E., JR., Secretary of the Navy..........     5
Murphy, Honorable Patrick J., Under Secretary of the Army........    10
Milley, General Mark A., USA, Chief of Staff of the United States 
  Army...........................................................    12
Neller, General Robert B., USMC, Commandant of the United States 
  Marine Corps...................................................    13

Questions for the Record.........................................    96

                                 (iii)

 
 THE IMPLEMENTATION OF THE DECISION TO OPEN ALL GROUND COMBAT UNITS TO 
                                 WOMEN

                              ----------                              


                       TUESDAY, FEBRUARY 2, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Committee members present: Senators McCain, Sessions, 
Wicker, Ayotte, Fischer, Cotton, Ernst, Tillis, Sullivan, Lee, 
Reed, Nelson, McCaskill, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to hear testimony about how the 
Army and Marine Corps are planning to implement the Secretary 
of Defense's decision to open all ground combat units to women.
    We welcome our witnesses this morning: Secretary of the 
Navy Ray Mabus; Commandant of the Marine Corps General Robert 
Neller; Acting Secretary of the Army Patrick Murphy; and Army 
Chief of Staff General Mark Milley. We thank you for being here 
this morning and for your many years of distinguished service.
    This hearing is not about whether women can serve in 
combat. The fact is that women have served honorably in our 
military for years. They have filled critical roles in every 
branch of our military. Some have served as pilots like 
Congresswoman Martha McSally who flew combat missions in 
Afghanistan. Some have served as logisticians like Joni Ernst 
who ran convoys into Iraq. Others have served as medics, 
intelligence officers, nuclear engineers, boot camp 
instructors, and more.
    Many of these women have served in harm's way. Women like 
Army Specialist Monica Lin Brown who ran through insurgent 
gunfire and saved the lives of her wounded comrades by using 
her body to shield them from incoming mortar fire. Women like 
Army Sergeant Leigh Ann Hester who led a counterattack that 
defeated an ambush by 50 insurgents and saved the lives of her 
fellow soldiers.
    Many women have made the ultimate sacrifice in the service 
of our Nation, including 160 killed in the wars in Afghanistan 
and Iraq. We honor their service and sacrifice, and we honor 
them.
    That is why when then-Secretary of Defense Leon Panetta 
lifted the ban on women serving in combat 3 years ago, I 
supported that decision. But as I said then, as this decision 
is implemented, ``it is critical that we maintain the same high 
standards that have made the American military the most feared 
and admired fighting force in the world.'' We have a 
responsibility to do the right thing, but we also have an equal 
responsibility to do the right thing in the right way. That is 
what this hearing is about, ensuring that as women move into 
more positions across our military, the readiness, combat 
effectiveness, and the safety and wellbeing of all service 
members, both men and women, remain our paramount priority.
    On December 3rd, 2015, Secretary Carter announced that the 
Department of Defense would lift the ban on women in ground 
combat units. In advance of this decision, both the Army and 
Marine Corps sought to assess the physical and readiness 
impacts of integrating women into their ground elements, 
including through special field studies. The Army study 
simulated tasks to determine what the gender-neutral standards 
should be for each occupational specialty based on physical 
tasks. The Marine Corps simulated the combat environment with 
men and women marines living and working together under combat-
like conditions.
    These studies, while different in their approach, are 
complementary in their results. For the first time, they helped 
establish objective, scientifically based standards for the 
tasks required for ground combat. They found that certain women 
could meet these standards. But both studies also found that 
when performing brute physical tasks, on average these higher-
performing women were generally comparable to lower-performing 
men and that in the process, women sustained higher rates of 
injury than men. Indeed, only two women marines were able to 
complete the combat activities simulated in the Marine Corps 
study due to extremely high rates of injury to lower 
extremities.
    In short, the Army and Marine Corps studies demonstrated 
that biological differences between men and women can have 
implications when it comes to the sustained physical activities 
involved in combat.
    Rather than honestly confront these realities, some have 
sought to minimize them. Indeed, we have even heard attempts to 
disparage the women marines who participated in the study at 
Twentynine Palms as somehow less than our best. In fact, these 
women were top caliber marines, self-selected and chosen to 
participate based on their aptitude and physical strength. I 
hope that Secretary Mabus and others who have spoken ill of 
these women will repudiate these comments.
    Put simply, I am concerned that the Department has gone 
about things backwards. This consequential decision was made 
and mandated before the military services could study its 
implications and before any implementation plans were devised 
to address the serious challenges raised in the studies. 
Indeed, our services now have the authority to begin 
contracting women for ground combat positions, but the Congress 
has yet to receive any implementation plans. Our witnesses are 
here today to address these concerns and the many questions 
that still remain.
    For the members of this committee to perform our oversight 
responsibilities, we need to know what the gender- neutral 
military occupational specialty tests will look like, when they 
will be administered, how often they will be administered, and 
how they will interact with the current physical fitness 
standards which are currently gender- normed. We need to know 
how women service members will be set up for success to serve 
long and healthy military careers while maintaining high 
standards. And while the services are committed to maintaining 
standards that are tied to specific military occupational 
specialties, we know that over time political pressure will 
come to bear to increase the number of women in combat arms 
specialties. We expect to hear the witnesses address these 
important concerns.
    Most importantly, we need to hear from a professional 
military perspective how integrating women into scout sections, 
infantry squads, tank crews, artillery batteries, and combat 
engineers will improve the readiness and combat power of our 
ground units. After all, that is the overriding mission of our 
Nation's military.
    Recent experiences in Afghanistan and Iraq serve as a stark 
reminder that close combat remains brutal and uncompromising. 
Warfare has changed over the years, but the duty of our 
fighting men and women, from the Second World War to Vietnam to 
today, remains the same, to close with and destroy the enemy. 
It is conducted in dangerous and austere environments. No other 
human activity is more psychologically straining, morally 
demanding, and more physically stressful. High physical 
standards alone do not assure success in ground combat. 
Ultimately these standards must be devised and implemented in a 
manner that ensures that we treat our soldiers and marines 
fairly, but that we never offer the enemy a fair fight.
    That is why we must be uncompromising in our insistence on 
training to high standards. That is why we must preserve the 
small unity cohesion and discipline that ensure small combat 
units can win and survive on the forward edge of the 
battlefield. Troops in close combat bear the heaviest burden 
across the entire Department of Defense. And going forward, it 
is the wellbeing of those service members, whether they be men 
or women, that must override every other concern.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. I 
would like to join you in thanking our witnesses for joining us 
today to provide testimony on how their respective services 
will successfully integrate women into combat occupations and 
the ground combat forces in particular.
    I would like to thank each of you and the services you 
represent, as well as the Air Force, which is not represented 
here today, on the deliberative processes that you have taken 
in studying this issue over the past several years. Secretary 
Panetta and General Dempsey initiated this effort in 2013, and 
since then, each service has conducted research and studied 
performance to validate occupational standards for every 
military occupation. While today's hearing is focused on the 
difficult and challenging aspects of integration within the 
ground combat forces, it is important to remember that hundreds 
of thousands of positions have been opened to service by women 
over the past several years. Many of these positions were 
considered not too long ago as available for men only for many, 
many reasons. This assumption has been disproven by the 
performance of female personnel in those occupations already 
open to all genders.
    Now that the decision to open all positions to women has 
been made, it is important that we turn our focus to the 
successful integration of females into these positions. 
Leadership is the key to ensuring both individual and 
collective success, as it was when other military occupations 
where opened to women. I have every confidence that each of you 
will implement this decision smartly and successfully.
    Part of this process, as I mentioned, is the statutory 
requirement to establish gender-neutral physical, mental, and 
technical occupational standards which any service member, male 
or female, must meet as a condition to serve in any particular 
occupation, including the combat arms. This is critical. As 
many members have said over the past several years, it is 
important that our warfighting capability not be reduced. There 
is a tendency, however, to equate warfighting capability solely 
with physical capability. Fighting and winning wars, as I am 
sure our panelists know well, much more so than I, involves 
much more than that. I believe that the full and successful 
integration of women into the combat arms, for a variety of 
reasons, will strengthen and enhance our warfighting 
capabilities.
    Integrating women into ground combat units also must be 
reflected in how and who we recruit and how we assess 
capabilities at the recruit stage to maximize successful 
service and minimize attrition. Not all women will be able or 
even interested in serving in the combat arms. But I believe 
many, particularly those with the required physical ability and 
the necessary mental toughness for service in the combat arms, 
may now be drawn to the ever greater equal opportunities 
provided by military service. I look forward to hearing how the 
services plan to recruit and assign individuals for service in 
the combat arms, what plans you have for developing predictive 
tests at the recruit stage to assess the potential for success 
of a given recruit, and what challenges you face and foresee.
    Finally, I believe it is important for the services, but 
particularly Army and the Marine Corps, to develop plans and 
strategies to mitigate the physical stress and toll that a 
career in the ground combat profession has on every soldier and 
marine, men as well as women. Part of successful implementation 
will be ensuring the ability to serve a full career regardless 
of gender.
    I thank you for your time and your expertise and look 
forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. We would like to begin with you, Secretary 
Mabus.

STATEMENT OF HONORABLE RAYMOND E. MABUS, JR., SECRETARY OF THE 
                              NAVY

    Mr. Mabus. Chairman McCain, Ranking Member Reed, members of 
this committee, the issues before us today are of vital 
importance, as you have heard, to the future of the United 
States Marine Corps, the Department of the Navy, the Department 
of Defense, and our Nation as a whole.
    The question at issue is very straightforward: how do we 
maintain and improve the combat effectiveness of our military 
as we execute the decision to open all previously closed 
positions to women.
    Serving as Secretary of the Navy is the greatest honor of 
my life. Every single decision I make is in support of 
maximizing the combat effectiveness of the United States Marine 
Corps. For almost 7 years as Secretary, I have been talking to 
marines face to face about being marines, about making marines, 
and the marines warfighting ethos. I have seen them at 
Quantico, at Paris Island, at San Diego, and at nearly every 
stop that I have made in the almost 1.2 million miles I have 
traveled as Secretary, including every single forward operating 
base in Helmand Province, Afghanistan. I have spent time with 
marines where they are serving and have seen firsthand that 
this decision to open all previously closed positions to women 
is putting policy in line with what is already reality, 
acknowledging the critical role women play and have been 
playing in mission success.
    The Marine Corps is the most formidable expeditionary 
fighting force the world has ever known. That legacy is proven 
through the Corps' storied history, from the halls of Montezuma 
to the valleys of Afghanistan, and that reputation is 
unquestioned in America and around the globe. No better friend, 
no worse enemy. The strong traditions of the Marines help make 
that reputation and among those traditions is a commitment to 
evolve, to be flexible, in one of the common instructions given 
to young marines, improvise, adapt, overcome.
    Throughout its history, the Corps has maintained its combat 
power and its lethality by adapting to changing conditions, 
evolving training and tactics to meet new challenges and new 
threats. Today's School of Infantry is not the same as it was 
just 25 years ago during Desert Storm, and the change is even 
more dramatic since Vietnam or World War II. In a world where 
the threats and the battle space are all increasingly complex, 
failing to reevaluate everything from personnel policies to 
weapons programs can be dangerous if not fatal. A response of 
``that is the way we have always done it'' is not, cannot, and 
never has been an acceptable rationale.
    In the Department of the Navy, we are continually 
evaluating the way we operate. After Secretary Panetta and 
Chairman Dempsey set us in 2012 on the path toward opening all 
billets, including ground combat, to women by this year, the 
Navy and Marine Corps, along with our sister services, 
conducted extensive studies on this issue. These studies helped 
inform the Department's recommendation to Secretary of Defense 
Carter and his subsequent decision to open all previously 
closed positions in all services to women. But they were not 
the only source of information that was gathered in reaching 
that recommendation.
    However, the Marine Corps study has drawn special 
attention, and at least some of what has made it into public 
discussion is less than accurate. Among the misperceptions is 
that the Marines relied on just one study. In fact, their 
conclusions were based, in part, on a number of studies and 
reports. I have spent a lot of time closely reviewing all of 
them, especially the Marines' own study. In addition, I have 
had numerous discussions with senior Marine leadership, with 
junior officers, with enlisted personnel.
    First and very importantly, I absolutely commend the 
marines who volunteered for this experiment for their work in 
assisting the Corps with approaching this integration process. 
I also appreciate the thoughtfulness, the diligence, and the 
sincerity of Marine leadership. Their time and effort helped to 
develop these standards, reinforce the importance of 
leadership, and set specific metrics for these demanding ground 
combat jobs.
    The most surprising finding of the Marine Corps study was 
that standards for many Marine Corps military occupation 
specialties, MOS's, just did not exist. An incredibly important 
thing that came out of this study was the establishment of 
operationally relevant, occupation- specific, gender-neutral 
standards.
    The Marines deconstructed every job in ground combat to 
specifically detail its requirements so that individual members 
could function better as a team. So what we have now are a set 
of standards based on the actual requirements and demands for 
every Marine MOS, and the Corps is more effective and more 
ready because of this work.
    As I thoroughly examined the Marine Corps study, it was 
clear that the conclusions focused on the average performance 
of female marines rather than on individual abilities. Averages 
do not tell the abilities and performance of an individual 
marine. There were and are capable women who can meet the 
arduous standards the Marine Corps set for ground combat arms 
units. And we all know that marines have never been about 
average.
    We also know, as Commandant Neller regularly and very 
correctly notes and as the chairman in his opening statement 
said, this is not about women in combat. Women have been 
serving in combat and serving with distinction, and they have 
been recognized for it. 422 female marines have earned the 
Combat Action Ribbon for their service in Iraq and Afghanistan 
for the various roles they have played, to include the Lioness 
Program and Female Engagement Teams.
    Female marines have enhanced combat effectiveness by 
running convoys and security patrols, flying close air support 
missions, and leading engineering platoons. They have performed 
exceptionally on the front lines in places like Fallujah, 
Ramadi, and Sangin.
    Chairman McCain. Mr. Secretary, I would like you to try to 
truncate your remarks and summarize. We have other witnesses 
and questions by the committee.
    Mr. Mabus. The Marine Corps leadership have developed 
thoughtful and deliberate plans to execute this transition 
effectively. The Corps has already notified the 231 women who 
have successfully completed ground combat arms MOS training at 
formal learning centers that they can switch to these 
previously closed jobs immediately if they chose to.
    Part of this transition is the evaluation of the training 
and education that we provide at every level, from recruits and 
officer candidates to the highest levels of leadership, and the 
Secretary of Defense highlighted education and training as a 
focus area as we begin implementation of this policy.
    A point of discussion has been that the Marines are the 
only service which separates men and women at boot camp. I 
directed the Marines to brief me on a plan to integrate basic 
training.
    The Marines prepared a very thoughtful briefing and went 
ahead, which provided timely and informative considerations as 
the Department of Defense Implementation Group do their 
important work. With the benefit of their response, we can move 
forward in a measured and effective way using the lessons of 
fully integrated, gender-integrated OCS and the basic school, 
as well as lessons learned as Marines have opened up many MOS's 
in the past 3 years.
    With validated, operationally relevant, job-specific 
standards, the only test that is important is whether a person 
can meet those standards. Now, I know that suggestions have 
been made that those standards might be lowered down the road 
to achieve some quota, some numerical goal. But that is 
unacceptable, unacceptable under the law, unacceptable to me, 
unacceptable to every other senior leader in the Pentagon 
because it would endanger not only the safety of marines but 
the safety of our Nation.
    Lowering standards would also be unacceptable, absolutely 
unacceptable, to every marine, especially those women who 
choose to compete for those positions. One thing is inviolate: 
standards can never be lowered for any group or any job. 
Standards will evolve as threats evolve, but they will evolve 
for everyone equally. But just as there is no good argument to 
lower standards, there is also no good argument to bar anyone 
who has met those standards from serving.
    That is the American promise. It does not guarantee an 
outcome to anyone, but it does guarantee opportunity for 
everyone. For those who want to serve in these trying MOS's, 
these high standards will not make it easy, nor should they. 
But every person will have the opportunity. And for those who 
succeed, they will operate side by side with everyone else who 
has met the standard to be a marine. Those marines and this 
Nation will continue to uphold the motto that marines have 
fought and died under for almost 2 and a half centuries: Semper 
Fidelis.
    [The prepared statement of Mr. Mabus follows:]
               Prepared Statement by Mr.Raymond E. Mabus
    Chairman McCain, Ranking Member Reed, members of the Committee, the 
issues before us today are of vital importance to the future of the 
United States Marine Corps, the Department of the Navy, the Department 
of Defense, and our nation as a whole.
    The question at issue is very straightforward: How do we maintain 
and improve the combat effectiveness of our military as we execute the 
decision to open all previously closed positions to women.
    Serving as Secretary of the Navy is the greatest honor of my life. 
Every single decision I make is in support of maximizing the combat 
effectiveness of the Marine Corps. For almost seven years as Secretary, 
I've been talking to Marines face to face about being Marines, making 
Marines, and the Marine warfighting ethos. I have seen them at 
Quantico, at Parris Island, at San Diego and at nearly every stop I've 
made along the 1,160,208 miles I've travelled during my time as 
Secretary, including every FOB [Found Operating Base] in Helmand 
Province, Afghanistan. I've spent time with Marines where they are 
serving, and have seen first-hand that this decision to open all 
previously closed positions to women is putting policy in line with 
what is already reality, acknowledging the critical role women play, 
and have been playing, in mission success.
    The Marine Corps is the most formidable expeditionary fighting 
force the world has ever known. That legacy is proven through the 
Corps' storied history, from the halls of Montezuma to the Valleys of 
Afghanistan, and that reputation is unquestioned in America and around 
the globe: No better friend, no worse enemy. The strong traditions of 
the Marines help make that reputation, and among those traditions is a 
commitment to evolve, to be flexible--in one of the common instructions 
to young Marines--to improvise, adapt and overcome.
    Throughout its history, the Corps has maintained its combat power 
and its lethality by adapting to changing conditions, evolving training 
and tactics to meet new challenges and new threats. Today's School of 
Infantry is not the same as it was just 25 years ago during Desert 
Storm, and the change is even more dramatic since Vietnam or World War 
II. In a world where the threats and the battle space are all 
increasingly complex, failing to re-evaluate everything from personnel 
policies to weapons programs can be dangerous if not fatal. A response 
of ``that's the way we've always done it,'' is not, cannot be, and 
never has been, an acceptable rationale.
    In the Department of the Navy, we are continually evaluating the 
way we operate. After Secretary Panetta and Chairman Dempsey set us in 
2012 on the path toward opening all billets, including ground combat, 
to women by this year, the Navy and Marine Corps--along with our sister 
services--conducted extensive studies on that issue. These studies 
helped inform the Department's recommendation to Secretary of Defense 
Carter and his subsequent decision to open all previously closed 
positions in all services to women. But they were not the only source 
of information that was gathered in reaching that recommendation.
    However, the Marine Corps study has drawn special attention, and at 
least some of what has made it into public discussion is--to put it 
generously--less than accurate. Among the misperceptions is that the 
Marines relied on just one study. In fact, their conclusions were, in 
part, based on a number of studies and reports. I have spent a 
considerable amount of time closely reviewing all of them, especially 
the Marines' own study. In addition, I've had numerous discussions with 
senior Marine leadership, junior officers, and enlisted personnel.
    First and very importantly, I commend the Marines who volunteered 
for the experiment for their work assisting the Corps with approaching 
the integration process. I also appreciate the thoughtfulness, 
diligence and sincerity of Marine leadership. Their time and effort 
helped to develop standards, reinforce the importance of leadership, 
and set specific metrics for these demanding ground combat jobs.
    The most surprising finding of the Marine Corps study was that 
standards for many Marine Corps Military Occupations Specialties--or 
MOS's--did not exist. An incredibly important thing that came out of 
this study was the establishment of operationally relevant, occupation 
specific, gender-neutral standards.
    The Marines deconstructed each job in a ground combat unit to 
specifically detail its requirements so that individual members could 
function better as a team. So what we have now are a set of standards 
based on the actual requirements and demands for every Marine MOS, and 
the Corps is more effective and more ready because of this work.
    As I thoroughly examined the Marine Corps study, it was clear that 
the conclusions focused on the average performance of female Marines 
rather than individual abilities. Averages don't tell the abilities and 
performance of an individual Marine. There were--and are--capable women 
who can meet the arduous standards the Marine Corps set for ground 
combat arms units. We all know the Marines have never been about 
average.
    We also know, as Commandant Neller regularly and very correctly 
notes, that this is not about women in combat. Women have been serving 
in combat, serving with distinction, and they've been recognized for 
it; 422 female Marines have earned Combat Action Ribbons for their 
service in Iraq and Afghanistan for various roles they've played, to 
include the Lioness Program and Female Engagement Teams.
    Female Marines have enhanced combat effectiveness by running 
convoys and security patrols, flying close air support missions, and 
leading engineering platoons. They have performed exceptionally on the 
front lines in places like Fallujah, Ramadi and Sangin--upholding the 
Marines' incredible combat proficiency and impeccable traditions. This 
is about opening up the last few MOS's in accordance with the direction 
by the Secretary of Defense and doing so in a way that maintains or 
increases combat effectiveness.
    Last week, I was at Quantico to have a frank discussion with 
Marines and see them train. What the visit reinforced in me is just how 
exceptional these young men and women are. They are mission-focused and 
thoughtful, they are respectful and proud, and they are intent on doing 
what Marines do best: developing the world's finest warfighters, 
irrespective of gender, color, religion or background because those 
things are irrelevant when it comes to meeting the standards required 
in combat.
    Officers Candidate School and The Basic School at Quantico are 
already fully gender integrated. The questions I received there from 
the Corps' newest officers were far broader than the opening of the 
last few MOS's. There were questions about how to lead in new, ever-
changing environments and about emerging threats like cybersecurity.
    The Marines of history, those that fought at Belleau Wood, at Iwo 
Jima, at Hue City, at Fallujah and at Mousa Kala have always 
represented the best our country has to offer, have always adapted and 
overcome whatever threat has faced our country. My visit showed me that 
is absolutely still the case today.
    Marine Corps leadership have developed thoughtful and deliberate 
plans to execute this transition effectively. The Corps has already 
notified the 231 women who have successfully completed ground combat 
arms MOS training at formal learning centers they can switch to these 
previously closed jobs immediately if they choose to do so.
    Part of this transition is the evaluation of the training and 
education that we provide at every level, from recruits and officer 
candidates to the highest levels of leadership, and the Secretary of 
Defense highlighted education and training as focus areas as we begin 
implementation of this policy. A point of discussion has been that the 
Marines are the only Service which separates men and women at boot 
camp. I directed the Marines to brief me on a plan to integrate basic 
training and then to implement that plan by April 1.
    The Marines prepared a very thoughtful briefing and way ahead, 
which provided timely and informative considerations as the Department 
of Defense-wide Implementation Group, headed by the Deputy Secretary of 
Defense and the Vice Chairman of the Joint Chiefs of Staff, do their 
important work. I thank the Marine Corps for assembling this 
information.
    With the benefit of their response, we can move forward in a 
measured and effective way using the lessons of OCS and TBS [The Basic 
School] as well as the lessons learned as Marines have opened up many 
MOS's in the past 3 years.
    With validated, operationally relevant, job specific standards--
these are high standards--the only test that is important is whether a 
person can meet those standards. I know suggestions have been made that 
those standards might be lowered down the road to achieve some quota, 
some numerical goal. But that is unacceptable, unacceptable under the 
law, and unacceptable to me and every other senior leader in the 
Pentagon, because it would endanger not only the safety of Marines, but 
also the safety of our nation.
    Lowering standards would also be unacceptable to every Marine, 
especially those women who choose to compete for these positions. One 
thing is inviolate: standards can never be lowered for any group or for 
any job. Standards will evolve as threats evolve, as circumstances 
change, but they will evolve for everyone equally. But just as there is 
no good argument to lower standards, there is also no good argument to 
bar anyone who has met those standards from serving.
    The Secretary of Defense's decision to open all previously closed 
MOS's, including all Marine MOSs, to women is therefore an important 
step for our military and our country. This isn't about quotas, and 
this doesn't mean every, or even most, Marines will make it, but it 
does mean every Marine who wants to will have the chance to compete.
    And that is the American promise, which does not guarantee an 
outcome to anyone, but does guarantee opportunity for everyone.
    Americans have always worked to fulfill that exceptional promise 
made at our founding. We have continually broken down artificial 
barriers to equal opportunity based on race, religion or gender. Our 
military forces have followed that same history and made themselves 
stronger and better and more effective because of it.
    Implementing this policy breaks down a last barrier.
    For those who want to serve in these trying MOS's, these high 
standards will not make it easy, nor should they, but each person will 
have the opportunity. And for those who succeed, they will operate side 
by side with everyone else who has met the standard to be a Marine. 
Those Marines and this nation will continue to uphold the motto Marines 
have fought and died under for almost two and a half centuries: Semper 
Fidelis.

    Chairman McCain. Secretary Murphy?

 STATEMENT OF HONORABLE PATRICK J. MURPHY, UNDER SECRETARY OF 
                            THE ARMY

    Mr. Murphy. Chairman McCain, Ranking Member Reed----
    Chairman McCain. Your complete statements will be made part 
of the record. Please go ahead.
    Mr. Murphy. Mr. Chairman, thank you for the opportunity to 
appear before you today.
    The Army remains in full support of Secretary Carter's 
directive to open every job to every soldier regardless of 
gender. Following 3 years of study, then-Secretary John McHugh 
recommended that no exceptions be made in the implementation, 
and I concur with his recommendation today.
    This is the right decision for our Army. Our Army 
represents America and embodies the best of our values. The 
personal courage and selfless service made by women in our Army 
is no different than that exhibited by our men. We owe them the 
respect and honor to offer them the opportunity to succeed 
anywhere in our Army based upon only the merits of their 
performance.
    Practically this is the right decision for our Army as 
well. As our Army gets smaller, our success increasingly 
depends upon our ability to maximize the contributions of every 
volunteer that fills our ranks. A soldier's ability to meet 
established standards that contribute to our success will 
remain our overriding factor moving forward.
    Recognizing these imperatives, the Army began integration 
efforts several years ago to take full advantage of America's 
diverse and deep talent. Practical knowledge gained from these 
efforts complemented by several years of extensive research, 
collaboration, and practical evaluation have led us to three 
primary conclusions.
    First, that women are capable of performing every job in 
the Army. This is not to say that every woman can do every job, 
just like every man cannot do every job. But no job in our Army 
has standards that cannot be met by women. Therefore, every 
soldier will have the opportunity, should they choose to do so, 
to compete against established standards for every position, to 
include the infantry, armor, and special forces.
    Next, we will maintain high individual standards of 
performance and professional conduct. These standards will 
continue to be based upon the requirements of the position and 
nothing else. We will continue to enforce them fairly and 
objectively across the force. Our guiding principle for these 
standards is and will remain exclusively their contribution to 
mission success.
    Finally, leadership is critical to integration. As 
Secretary Carter noted, the performance of teams is important 
and integration will change these dynamics. Our leaders, 
enabled by comprehensive and deliberate education, will closely 
monitor these efforts. We cannot anticipate or control for 
every impact of integration, but this will not slow our 
progress. We will continue to monitor and report the lessons we 
learn so that our Army can collectively integrate the force and 
share our experiences. But we are prepared to act and benefit 
from integration now.
    Full integration will likely take several years, both to 
adjust the culture and to grow individual skills within our 
force. But I am confident that every leader in the Army will 
understand and respect the increased readiness that integration 
will bring. Underpinned by strong, professional leaders, we 
will remain true to the values of the Army and to America and 
emerge as a stronger, more ready Army as a result.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Murphy and Mr. Milley 
follows:]
The Joint Prepared Statement by Hon. Patrick J. Murphy and General Mark 
                     A. Milley, United States Army
implementation of the decision to open all ground combat units to women
    Chairman McCain, Ranking Member Reed and Members of the Committee, 
thank you for the opportunity to appear before you on behalf of 
America's Army.
    Following three years of careful and comprehensive study, the Army 
recommended all military occupational specialties (MOS) be open to 
women. In our view, the best-qualified Soldier, regardless of gender, 
should be allowed to serve in any position.
    Every volunteer who swears to support and defend our Constitution 
should be afforded the opportunity to serve according to their merit in 
any military career field.
    Full integration will result in a stronger Army. Establishing 
specialty-specific, operationally-relevant gender neutral standards, 
based on combat experience that are rigorously enforced for both men 
and women will likely increase overall readiness of the Army to conduct 
operations anywhere at any time against any foe. Women represent 
greater than half our population and the Army intends to take full 
advantage of this talent pool.
    The Army has previously and continues to successfully integrate 
females into units based upon a phased, deliberate approach that 
maintains Army standards, ensures equitable treatment, and reinforces 
Army values of dignity and respect. Our guiding principles of 
implementation are first, to maintain readiness that is standards-
based. Second, to have a deliberate and methodical process that is 
transparent. And third, that leadership and accountability are key to 
success, with no quotas and equitable treatment. As we continue to move 
forward to fully integrate our Army, we intend to build upon these 
principles.
    The Army has deployed gender integrated Brigade Combat Teams over 
the last decade. Since 2011 the Army opened 9 military occupational 
specialties and approximately 95,000 positions in Combat Arms units, 
down to company and platoon level. Since 9/11, over a thousand U.S. 
military women have been killed or wounded while deployed to combat 
zones. Today, women serve in every Active Duty Infantry, Armor and 
Field Artillery battalion. The 160th Special Operations Aviation 
Regiment was opened to women in 2014, and the Army's Ranger Course was 
opened just last year. The Army has had success with its deliberate 
methodical approach. Additionally, over 9,000 women have received the 
Army Combat Action Badge for ``actively engaging or being engaged by 
the enemy,'' and two have received the Silver Star for ``gallantry in 
action against an enemy of the United States.''
    We have identified several tasks required for full integration. We 
will implement published, measurable, gender-neutral standards based 
solely on combat requirements and that will not be compromised for any 
reason. Next, we will initiate gender-neutral training, and assign 
leaders first, followed by female enlisted Soldiers. This will allow us 
the opportunity both to learn from measured implementation as well as 
to build a cadre of female officers and NCO (Non Commissioned Officer) 
leadership. Additionally, we will improve our accessions vetting to 
better screen and manage individual Soldier qualifications.
    We estimate that effective integration will require 1-3 years of 
deliberate, monitored effort with continued rigorous assessment. We 
have already begun to ensure our facilities meet legal and Army 
guidelines for accession as well as basic and initial training of 
female Soldiers. Additionally, we are providing leaders and Soldiers 
with appropriate education to support these changes. This spring, 
female cadets and officer candidates who qualify will be given the 
opportunity to request assignment to Infantry or Armor branches. As 
those women who volunteer complete necessary training for their new 
MOSs, they will serve as the basis for our integrated programs.
    While real challenges remain, we are confident they are manageable. 
These challenges include: inconsistent enforcement of existing 
standards and perceptions of double-standards; cohesion; sexual assault 
and harassment; ignorance of Army policy; small numbers of volunteers 
or high attrition; injury rates; career management; and discipline. 
Through a variety of policies, rigorous training, enforced standards, 
and leader education--all grounded in the importance of ground combat--
full gender integration is possible. The Army will regularly assess our 
long-term strategies and continue earlier studies to better understand 
critical areas. Combined, this will inform future policy adjustments 
and education plans to support full gender integration.
    The Army has an established record of success in opening 
occupations previously closed to women. These experiences and the 
results of five careful and deliberate studies have informed and 
enabled the Army to successfully implement this guidance and increase 
our overall readiness, thereby making us a more combat effective Army. 
As the Army moves forward, you have our commitment that we will do so 
in a manner that is fully transparent to the American people and to the 
Congress.
    On behalf of the Army, thank you for your support of our Soldiers, 
Civilians, Veterans, and their Families.

    Chairman McCain. General Milley, welcome.

STATEMENT OF GENERAL MARK A. MILLEY, USA, CHIEF OF STAFF OF THE 
                       UNITED STATES ARMY

    General Milley. Thank you, Chairman. Appreciate it. And 
Ranking Member Reed and thank you all for the opportunity to 
appear before you on behalf of America's Army and to discuss 
the Army's implementation plan for full integration of women.
    For the record, I fully support opening any military 
occupational specialty and all military occupational 
specialties in the United States Army to all soldiers 
regardless of gender. It is my solemn duty as the Army Chief of 
Staff to ensure that the Army remains ready to defend this 
great Nation and to do so, we need the most capable and 
qualified men and women.
    Readiness is the Army's number one priority, and I believe 
that full integration of women in all career fields will either 
maintain, sustain, or improve the overall readiness of the 
United States Army and our capability of the force. If and only 
if we maintain and enforce rigorous combat readiness standards, 
we remain a merit-based, results-oriented organization and we 
apply no quotas and no pressure. We cannot compromise combat 
readiness and effectiveness for any reason whatsoever.
    The Army's implementation plan will be guided by a set of 
first principles. We will maintain readiness by adherence very 
strictly to a set of standards, and we will not impose quotas 
on ourselves. We will execute a very deliberate, methodical, 
and transparent process. We must not rush to failure. And in 
this particular project, I believe that slow is smooth and 
smooth will be fast at the end of the day. We will set 
conditions by positioning female leaders and units who are 
engaged and those units' leaders will be accountable. These 
principles are aligned with the guidance given to us by the 
Secretary of Defense.
    The Army has identified several key tasks required for full 
gender integration. When the SecDef approves our plan, we have 
developed and will implement published, measurable, gender-
neutral standards based on combat readiness requirements.
    Next, we will initiate gender-neutral training for all 
officers, non-commissioned officers, and junior enlisted. And 
to ensure the success, our plan calls for the deliberate, 
methodical approach that begins with assessment, selection, 
training, and assigning of female infantry and armor leaders, 
both officers and NCOs, to units. That is our leaders' first 
principle. And then we will assign junior female enlisted to 
those units.
    I estimate that effective female integration into infantry 
armor and special forces will require no less than 1 to 3 years 
of deliberate effort in order to develop the individual skills 
and grow our leaders. The Army is currently in the process of 
ensuring our facilities comply with law and DOD policies for 
accession in gender-neutral living standards at both our basic 
and individual training.
    Additionally, we will provide leaders and soldiers with 
integration education and training to enhance our integration 
efforts over the course of this year. This spring, female 
cadets and officer candidates who meet the gender-neutral 
standard will be given the opportunity to request either 
infantry or armor branches, and that process is currently 
ongoing.
    The Army's integration plan is based on a successful record 
of opening occupations previously closed to women. Since 2011, 
the Army has opened nine MOS's and approximately 95,000 
positions in combat arms units. In fact, today every single 
active duty infantry, armor, and field artillery battalion has 
women in them. Additionally Task Force 160th--the 160th special 
operation aviation regiment--was open to women in 2014, and of 
course, as you know, the Army's Ranger School was opened last 
year. These experiences have informed and will enable the Army 
to successfully implement gender integration to increase our 
combat readiness.
    Make no mistake about it. This process is going to have 
challenges. But if we proceed with a methodical and deliberate 
execution and like all previous integration efforts, it is my 
belief that the Army will be successful.
    I have personally witnessed in multiple tours of very 
intense ground combat--I have personally witnessed women 
perform, and their tasks were not much different than any other 
man that was on that battlefield. I have absolutely no doubt in 
my mind in my professional judgment that some women can perform 
every single job in the United States Army, to include 
infantry, armor, and special forces.
    Army leaders will continue to assess and we will adjust the 
process to ensure that our standards and combat readiness are 
maintained and you, the committee, have my word on this. You 
also have my commitment that we will move forward in this 
endeavor in a very transparent and collaborative manner with 
this committee, with the American people, and with the 
Department of Defense.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions.
    Chairman McCain. General Neller?

STATEMENT OF GENERAL ROBERT B. NELLER, USMC, COMMANDANT OF THE 
                   UNITED STATES MARINE CORPS

    General Neller. Chairman McCain, Ranking Member Reed, in 
the interest of time, I would ask that my oral statement be 
submitted for the record.
    Chairman McCain. Without objection.
    [The prepared statement of General Neller follows:]

              Prepared Statement by General Robert Neller
    Chairman McCain, Ranking Member Reed, distinguished members of the 
Senate Armed Services Committee, thank you for your continued interest 
in ensuring the ongoing readiness of the Nation's Marine Corps. 
Successful execution of gender integration implementation will be key 
to sustaining our readiness, as well as ensuring all Marines have the 
greatest opportunity to succeed as valued members of our team.
    As you know, then-Secretary of Defense Panetta fully rescinded the 
Direct Ground Combat Definition and Assignment Rule (DGCDAR) in January 
2013. He directed the Services to integrate female service members into 
the remaining closed military occupational specialties (MOS) and units 
throughout the Department of Defense beginning in January 2016. 
Secretary Panetta also offered a period of time to study the 
implications of this policy change and directed the Services to return 
with any exception recommendations. The Marine Corps did not stand 
idle. Under the guiding principles of the Secretary of Defense, we 
implemented a deliberate, measured, and responsible research effort to 
better understand the aspects of gender integration in those remaining 
closed MOS's, and setting the conditions for successful policy 
implementation. Our research was about ``how'' to integrate, not 
``if.''
    Our first action was to form the Marine Corps Force Innovation 
Office (MCFIO), led by a General Officer. This group had the primary 
task to develop what we now call the Marine Corps Force Integration 
Plan (MCFIP). The MCFIP is a research and implementation campaign plan 
consisting of four lines of effort:

    1)  assigning female Marine officers, staff non-commissioned 
officers, and non-commissioned officers serving in combat support MOS's 
to 20 active and nine reserve ground combat arms units which were 
previously closed;
    2)  training female Marine volunteers at the entry-level, MOS-
producing schools for infantry, artillery, tank and assault amphibious 
vehicles to gain insights into the relative propensity among new female 
Marines to serve in various ground combat arms occupations, as well as 
relative success and injury rates and causes, by gender;
    3)  establishing a Ground Combat Element Integrated Task Force 
(GCEITF) to inform the development and validation of gender-neutral 
individual performance standards, as well as to conduct scientific 
research to understand the impacts, if any, of gender integration on 
unit-level performance (collective tasks) under conditions most closely 
approximating actual ground combat conditions; and
    4)  opening eleven MOS's that had previously been closed due 
principally to the co-location restriction within DGCDAR.

    In support of our campaign plan, the Marine Corps directly, and 
through third parties, conducted numerous studies and reviews within 
the time allotted to ascertain the benefits, impacts, risks, and 
potential mitigation measures, if needed, of a fully gender integrated 
ground combat force. This effort included visits to allied militaries 
with experience integrating female service members in ground combat 
arms specialties, equipment adaptation studies, literature reviews, 
surveys, and focus groups. In addition to our Marine Corps Recruiting 
Command; Training and Education Command; MCFIO; Operations Analysis 
Division; and the Marine Corps Operational Test and Evaluation 
Activity, the following external research partners supported the MCFIP:

    - Center for Strategic and International Studies (CSIS)
    - University of Pittsburgh Warrior Human Performance Research 
Center
    - Michigan State University
    - George Mason University
    - Research and Development (RAND) Corporation
    - Center for Naval Analyses (CNA)
    - Naval Health Research Center (NHRC)

    A MCFIP status update was included in the quarterly and, 
subsequently, semi-annual Women in Service Review (WISR) written 
updates provided through the Secretary of the Navy to the Secretary of 
Defense. Additionally, a MCFIP update brief was provided to the Joint 
Chiefs of Staff (JCS) ``Tank'' sessions on a quarterly basis over the 
past two years as part of regularly scheduled JCS WISR updates.
    Our research has analyzed the performance of individual Marines in 
our formal MOS-producing ground combat arms courses; as a result, we 
developed, refined, and implemented improved occupation-specific 
physical standards and the associated screening tools for obtaining 
these MOS's. But the individual is only one aspect. The Marine Corps 
fights in teams--as units--and it was important to understand the 
relative performance of units as well. We studied both gender 
integrated and non-integrated units, operating as squads, teams, and 
crews; and we did this under live-fire conditions that most closely 
replicate actual ground combat conditions. This is the first time this 
level of research has been conducted. To ensure accuracy, our study was 
peer reviewed by a team from George Mason University.
    In my professional opinion, the research we conducted and the plan 
we executed in response to Secretary Panetta's guidance was deliberate, 
measured, and responsible. We believe the data was compelling and 
supported our decision to request an exception to policy based on best 
military advice.
    Marines follow orders. In response to Secretary of Defense Carter's 
decision in December 2015, the Marine Corps is stepping out smartly to 
facilitate the integration of all qualified Marines into previously 
closed MOS's. Informed by our research, integration will be executed in 
a well-planned and responsible manner. We have already awarded 
additional MOS's to all Marines who earned it through primary MOS-
producing schools, and two female Second Lieutenants are currently 
undergoing MOS training at the Field Artillery Officer Basic Course. 
Also, Marines awarded these additional MOS qualifications can now 
request formal reclassification into the combat arms designation.
    We will build upon previous integration experiences and will 
strictly adhere to the refined individual performance standards that 
have resulted from the studies we have conducted. The framework of our 
study was--and continues to be--viewed through three interrelated 
lenses: first and foremost, the combat effectiveness of our Marine 
units; second, the health and welfare of our individual Marines; and 
finally, with an eye toward the best talent management of our total 
force--both today and into the future. Our readiness will remain the 
guiding focus as we implement our plan.
    We owe a debt of gratitude to all Marines, both female and male, 
who participated in our Ground Combat Element Integrated Task Force 
experiment. They were volunteers and did not have to put themselves 
through the demanding rigors of this months-long research. I believe 
they volunteered because, ultimately, Marines always seek a challenge; 
want to provide service to their Corps; and because they are committed 
to being part of a Marine Corps that is the best fighting force in the 
world.
    We also owe a debt of gratitude to our many allied military 
partners, and to all our research partners.
    As we move forward with our gender integration plan, we are 
establishing a methodology for assessment, just as we do with any plan 
we execute. The Marine Corps is a learning organization. We will 
evaluate the success of our plan and inform in-stride adjustments 
throughout this ongoing process as we: recruit, train, develop, deploy, 
and retain the highest quality force. Specifically, we will assess our 
integration efforts to:

    1)  ensure we understand the impact (positive or negative) on 
recruiting and retention;
    2)  ensure we understand the impact (positive or negative) on the 
combat readiness of our units; and
    3)  ensure we understand the impact (positive or negative) to 
relative competitiveness of the individual Marine to be the most 
successful they can be in achieving their goals. We will seek the 
greatest talent management objectives in concert with seeking the most 
combat ready units.

    In closing, I'm confident of the rigor we applied to our testing, 
our methodology, and the proud professionalism of all Marines involved 
in this process, especially those who volunteered for our experiments 
and schools, and paved the way to make us a better organization. Your 
Marine Corps is not focused on the past, but on the future. We have a 
responsibility to our Marines and the American people to ensure we get 
this right. Many have strong opinions about this issue. I am very proud 
that those within our ranks have stayed focused on what is important--
training hard and being ready when the Nation calls. The continued 
success of your Corps is based on a simple tenet: placing the best and 
most fully qualified Marines where they can succeed and make the 
strongest contribution to the broad range of missions the Marine Corps 
executes as the Nation's expeditionary force-in-readiness.
    I look forward to your questions.

    General Neller. We are ready for your questions, sir.
    Chairman McCain. Well, thank you.
    General Neller, you made a recommendation to request an 
exception to policy to keep some ground combat elements closed 
to women. Is that correct?
    General Neller. Yes, sir. Commandant Dunford made that 
recommendation, and I was witting and I supported that 
recommendation.
    Chairman McCain. General Milley, do you agree or disagree 
with General Neller's exception to policy to keep some ground 
combat elements closed to women?
    General Milley. Senator, I made the recommendation to open 
up all MOS's.
    Chairman McCain. I see.
    Secretary Mabus, your web site has a counter that shows you 
traveled over 1 million miles on trips as Secretary of the 
Navy. How many of those miles took you to Twentynine Palms and 
Camp Lejeune for the purpose of viewing the Marine Corps Ground 
Combat Element Integrated Task Force study?
    Mr. Mabus. Senator, I have been to Twentynine Palms several 
times, and I have been to Camp Lejeune several times.
    Chairman McCain. How many of these took you there for 
purpose to view the Marine Corps Ground Combat Element 
Integrated Task Force study?
    Mr. Mabus. I did not, sir.
    Chairman McCain. So you with a straight face made claims 
that the Marine study was flawed and biased even if you did not 
even go see the study being performed.
    The 1,000-page Marine Ground Element Study was released to 
you on August 31st, and 1 day after the release of the report 
on September 1st--this is a 1,000-page document--you gave an 
exclusive interview with the Navy Times in which you stated you 
saw no reason for an exemption to the gender integration 
policy. It is important to note you received the recommendation 
of the Commandant on September 17th, 2015.
    General Milley, how were you informed that this decision 
was going to be made?
    General Milley. For the gender integration, I was 
informed--I made my recommendations and then there was a 
session with the Secretary of Defense, the service secretaries, 
and the service chiefs.
    Chairman McCain. Well, when were you informed that the 
decision was made?
    General Milley. The decision for this, opening up the 
MOS's--I would have to go back, Senator, honestly and check the 
notebooks and give you an exact date, time. But he made the 
decision to open it up, we had a session and he announced it to 
us shortly before the announcement.
    Chairman McCain. General Neller, when were you informed of 
this decision?
    General Neller. Chairman, General Dunford made his 
recommendation you said on the 17th. I assumed this office on 
the 24th. I do not know the exact date that the Secretary 
forwarded his recommendation to Secretary of Defense Carter. 
But when that was done, that is when I was informed.
    Chairman McCain. One of the areas of some concern that have 
been voiced is the integration of basic training, given the 
fact that when a person enters basic training, they have not 
been exposed to the discipline associated with basic training. 
Is that of any concern to you, General Milley?
    General Milley. Senator, right now for infantry and armor, 
the Army does not have integrated basic training, similar to 
what the Marines do right now for their recruit training. It is 
at Fort Benning.
    I anticipate that after we set the conditions for this 
year, we will probably enter women into infantry and armor 
basic training at the maneuver center down at Fort Benning 
sometime in the early fall, probably September-October of this 
year. So there are concerns and we have got to make those 
adjustments between now and then in order to have women 
received at that basic training center.
    Chairman McCain. I move that we require all studies the 
Marine Corps and Army conducted and considered for the decision 
to open combat units to women be included as part of the record 
for this hearing.
    I move that we include statements from outside 
organizations that were submitted in advance of the hearing 
today.
    Senator Reed. Okay.
    Chairman McCain. So moved.
    [The information referred to follows:]

    The information has been received and is retained in the 
Committee files.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
        

    Chairman McCain. Senator Reed.
    Senator Reed. Thank you very much, gentlemen, for your 
testimony.
    General Milley, I was, as you I think suggested in your 
comments, very impressed that three female officers graduated 
from Ranger School, very demanding. From your professional 
experience and my retrospective experience, they would seem to 
be entirely capable of leading an infantry unit in combat. Is 
that your conclusion?
    General Milley. Yes, Senator. I would say that those three 
women that graduated could perform satisfactorily in an 
infantry unit in combat.
    Senator Reed. And your approach and I presume the approach 
of the Marine Corps also will be moving forward on a step-by-
step basis and integrating what you learned as you move forward 
so that it is clear this is going to happen from your 
standpoint, but that it is going to happen in an informed, 
careful way so that the capability of the unit combat 
effectiveness is not jeopardized. Is that fair to say?
    General Milley. Absolutely correct, Senator.
    Senator Reed. One other aspect of this issue too--and I 
think it was alluded to in all the testimony, and it is also 
reflected in a great deal of academic research recently--is 
that it seems that groups' collective intelligence increased as 
the number of women joined the group. And in fact, I think, 
General Neller, that one aspect of the Marine Corps study was 
that in those problems, those field problems that had more 
challenging cognitive elements than just simply brute strength, 
the study found that the integrated teams performed as well or 
better than the all-male teams. Is that a fair estimate?
    General Neller. Senator, in the evaluation we did in that 
one particular part of the trial, there was a positive aspect 
of problem solving when the teams were integrated.
    Senator Reed. Right.
    And I think one of the other aspects--and again, this is 
more observation than conclusion, but we see battlefields that 
are increasingly more complex. I mean, what you have seen in 
Afghanistan and Iraq is not a force-on-force, front line of LD 
[Line of Duty]--it is cultural activities. It is integrating 
with the community. It is picking up intelligence. It is doing 
lots of things that have a much more significant cognitive 
development than I would--again, this is more anecdotal than 
anything else--suggest might have happened on the battalion 
versus battalion warfare of World War II and other combat we 
have engaged in. That might suggest strongly that this 
direction is exactly the right direction to take.
    One other aspect, of course, is that--and I assume this, 
but I want your response--if in fact the Marine Corps is not 
granted an exemption, you are fully prepared and expect the 
Marine Corps successfully will integrate women into their 
ranks. Is that correct?
    General Neller. Senator, the Secretary of Defense has made 
a decision that we will not grant an exemption. So we are in 
the process and we have a plan, which we submitted, to 
successfully integrate women into these previously restricted 
MOS's and previously restricted units.
    Senator Reed. And you are confident that the Marine Corps 
will succeed as it always seem to succeed.
    General Neller. I want every marine to succeed, Senator. So 
that is our goal.
    Senator Reed. Yes, sir. Thank you for that.
    One of the other aspects going forward with respect to this 
issue is that essentially being able to recruit individuals in 
a very difficult, for want of a better term, market--roughly 25 
percent of the young people that are of enlistment age are 
physically and otherwise qualified right now because it is 
generally looked at as male dominated. But this would expand--
i.e., giving the options for women would expand--the number and 
the quality, I presume, of recruits that you could access. Is 
that a fair judgment? Then I will ask Secretary Mabus and 
Secretary Murphy to comment.
    Mr. Mabus. That is a very fair judgment, Senator. As you 
correctly pointed out, only one out of four Americans aged 18 
to 24 qualify for our military for physical reasons, 
educational reasons, or criminal records. And to shrink that 
pool deprives us of a lot of talent.
    Senator Reed. Secretary Murphy?
    Mr. Murphy. That is correct, Senator, that we do not want 
to exclude 50 percent of the potential talent pool in America. 
We need all the able bodied men and women, the best and the 
brightest and the toughest, to join our ranks to sustain the 
all-volunteer force that we have had.
    Senator Reed. Just a final comment/question very quickly 
and that is this is not just about the individual 
qualifications, it is also about the group performance. And 
that is a concern you all have to take into consideration as 
you move forward. But I just reflect, Secretary Mabus, for the 
longest time, submarine crews were all male because of the 
presumption that in that close, confined, extended tour, 6 
months at sea, that dynamic would not work. And you have 
successfully and the Navy has successfully integrated the crews 
on submarines so that they are both male and female. And what I 
am hearing is that the record is very, very good in terms of 
performance. Is that fair?
    Mr. Mabus. That is absolutely correct, Senator. The 
decision was made in 2010. Women have been going to sea in 
submarines since early 2011, and they perform magnificently and 
there has been no decrease and we think an increase in combat 
readiness for those submarines.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. I first want to associate myself with the 
views of General Neller and General Milley, that to discuss 
women serving in combat is something of a misnomer. Women have 
been serving valiantly in combat certainly for the last 15 
years and in reality much longer than that. So this is not 
really a question of women being in combat. This is about a 
limited number of roles, primarily in the Army and the Marine 
Corps, although the Air Force and the Navy do have some elite 
special operations forces that will be impacted. And within 
those two services, it is primarily about infantry and a few 
other combat-related roles.
    General Neller, since your service had requested an 
exemption, I would like to direct this question to you. 
Secretary of Defense Carter has said he is confident that you 
can address all concerns of implementation. The Ground Combat 
Integration Task Force, though, did conclude that there are 
irreducible and obvious physiological differences between men 
and women. That is one reason why there are men's and women's 
athletic events at the Olympics.
    Could you elaborate a little bit on how you plan to address 
these implementation questions?
    General Neller. Well, Senator, we learned a lot from the 
evaluation and the additional studies and other countries we 
looked at. So there are a lot of pieces to how we are going to 
implement this in a successful way. Part of it is going to be 
the standards that have been established to get into the entry 
level before you actually enlist, when you are at recruit 
training, and then the MOS qualifications. We are going to look 
at other ways to improve the physical capability of not just 
female but all infantry marines to reduce injury because 
incidence of injury is a concern.
    But I am not sure how far we can go with that just based on 
the simple fact in the infantry, the load-bearing requirements 
and the oxygen use, endurance between men and women--there are 
always exceptions. I mean, they are what they are.
    So we are going to look at this. We are going to monitor 
it. Part of our process is a continued study and evaluation to 
see what we can do and cannot do to mitigate this because at 
the end of the day, we have to maintain our readiness and we 
want every marine to be successful.
    Senator Cotton. Thank you. I am confident that whatever the 
policy direction you receive, you will do the very best job you 
can, as will General Milley, to ensure that your marines and 
your soldiers are set up for success, men and women alike.
    Secretary Mabus, I would like to go to an interview 
conducted last September about the study the Marine Corps 
conducted. You said, ``it started out with a fairly large 
component of the men thinking this is not a good idea, and 
women will not be able to do this. When you start out with that 
mindset, you are almost presupposing the outcome.''
    Which men in the Marine Corps had that mindset?
    Mr. Mabus. What I based that on, Senator, was some of the 
conclusions drawn from that study that were presented to me, 
which was that the marines that were chosen, the marines who 
volunteered and who I brag on for doing that--they did a great 
job in terms of establishing standards.
    However, some of the conclusions that were drawn was that 
male marines did not know how to--had not had any experience--
--
    Senator Cotton. Well, Secretary Mabus, the conclusions 
speak for themselves. You are questioning the motives of the 
Marine Corps leader in that statement it sounded like to me.
    Mr. Mabus. No, sir, I am not. I am speaking to the 
conclusions that were drawn, that the male marines in that 
experiment--most of them had had no experience working with 
women in these occupations, and they simply did not know how to 
do that. And that was one of the conclusions, and that was one 
of the conclusions that said you had to provide that 
leadership, which is part of the implementation plan, that 
leadership, to make sure that all marines, male and female, 
know how to deal with the other gender in these very demanding 
roles.
    Senator Cotton. Well, let us speak about the female marines 
in that study. You also were quoted in that interview as 
saying, ``I mean, in terms of the women who volunteered 
probably should have been a higher bar to cross to get into the 
experiment.'' Do you owe an apology to the women that 
participated in that study?
    Mr. Mabus. Senator--and I have the entire interview here. I 
know exactly what you are talking about. What I kept talking 
about was there were no standards for any of these when you 
started out. So the only thing that the women----
    Senator Cotton. The women in the Marine Corps' physical 
fitness test--the women in that study outperformed the average 
female marine, as compared to the man performing the average 
male marine. So the women were actually out performing the 
average female marine as compared to men in that study.
    Mr. Mabus. On the generalized physical fitness test, combat 
fitness test, nobody had had to meet a standard for these 
ground combat units. Nobody. There were no standards in there. 
One of the ways that General Neller just talked about that you 
ensure the integration is successful is by training to these 
very intense physical standards and starting at recruit 
training, starting at MOS schools, starting there and not just 
going to the very basic physical fitness test or combat fitness 
test.
    Senator Cotton. Thank you. My time has expired.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you.
    I think one of the questions we have to address now is 
registering for the selective service. As some of you may know, 
there was a Supreme Court decision back in 1981 when in fact 
the question was put in front of the Supreme Court whether 
women should be required to register for the selective service 
under current law. Justice Rehnquist wrote, ``the existence of 
combat restrictions clearly indicates the basis for Congress' 
decision to exempt women from registration. The purpose of 
registration was to prepare for a draft of combat troops. Since 
women are excluded from combat, Congress concluded they would 
not be needed in the event of a draft and therefore decided not 
to register them.'' So in other words, the rationale that 
Rehnquist used for saying there was no requirement of women to 
register for the selective service has now been eliminated.
    And I guess I want to ask all of you your sense of this. 
Part of me believes that asking women to register, as we ask 
men to register, would maybe, possibly open more recruits as 
women began to think about, well, the military is an option for 
me. And if you would briefly go down the line and give me your 
sense as to whether or not Congress should look at requiring 
selective service registration for all Americans.
    General Neller. Senator, it is my personal view that based 
on this lifting of restrictions for assignment to unit MOS, 
that every American who is physically qualified should register 
for the draft.
    Senator McCaskill. Secretary Mabus?
    Mr. Mabus. Senator, I think you correctly pointed out this 
needs to be looked at as part of a national debate, given the 
changed circumstances.
    The one thing you did say, not selective service- related, 
but that we do believe that this will open up recruiting, that 
more women will be interested in--I will just talk about the 
Marines--in the Marines because these last restrictions have 
been removed.
    Senator McCaskill. Secretary Murphy?
    Mr. Murphy. Senator, I believe that, yes, there should be a 
national debate and I encourage the legislative body to look at 
that. I would say that unlike the decision in 1981 where we are 
now in the longest war in American history over the last almost 
15 years, that we have had over 1,000 women killed or injured 
in combat. Now, with this implementation, if you can meet the 
standard, you are on a team no matter what MOS it is. So I 
highly encourage that national debate, ma'am.
    Chairman McCain. You would encourage what?
    Senator McCaskill. The debate.
    Mr. Murphy. The national debate, Mr. Chairman.
    Chairman McCain. You were asked for your opinion, Mr. 
Secretary.
    Mr. Murphy. Yes.
    Senator McCaskill. General Milley?
    General Milley. Senator, I think that all eligible and 
qualified men and women should register for the draft.
    Senator McCaskill. Well, I do too. I think it is the right 
thing going forward.
    I know that the Air Force has established a goal of having 
30 percent of its active duty applicant pool be women. Have 
there been any goals established in either the Army or the 
Navy?
    Mr. Mabus. No, Senator.
    Senator McCaskill. Secretary Murphy or General Milley, 
either one?
    Mr. Murphy. Senator, approximately 14 percent of our 
soldiers are women. At West Point, when I was a professor there 
in 2000, 16 percent were women. Now it is 22 percent are women. 
But the Army looks to be reflective of our society.
    General Milley. Senator, you asked about goals.
    Senator McCaskill. Right, just a goal.
    General Milley. The short answer is no. We have not set a 
goal for women in the infantry or the armor in terms of numbers 
or percentages whatsoever.
    Senator McCaskill. Okay.
    General Neller. Senator, could I just----
    Senator McCaskill. Sure, sure.
    General Neller. Right now, just under 8 percent of the 
Marine Corps are female marines, officer and enlisted. Even 
prior to this decision, I directed our recruiting to look at 
the possibility of increasing the number of women in the Marine 
Corps to 10 percent and to see if we can make that goal.
    Senator McCaskill. I want to briefly give a shout-out. I do 
think there is some culture here. Nobody here wants the 
standards to be lowered. And I think frankly the people who 
really do not want the standards to be lowered are women. The 
last thing in the world a woman needs is to join a unit with 
everyone looking over their shoulder saying, well, you are not 
the same as we are. So I do not think anybody here thinks that 
standards should be lowered.
    And I want to point out that the sapper course at Fort 
Leonard Wood--I do not think that anybody think that sappers--
that course is easy. Obviously, you are combat- trained in that 
course. For people who are not aware, this is for specially 
trained combat engineers. And they have been taking women since 
1999 at Fort Leonard Wood for this course. And it is tough.
    Now, the interesting thing about that, while there have not 
been a lot of women that have taken it, the percentage of women 
who have completed is identical to the percentage of men who 
have completed, 50 percent. So I would certainly urge all of 
you to take a look at what Fort Leonard Wood has done and how 
they have done it in one of the toughest physical challenges. 
You know, it is not the same as combat training, but they have 
to be combat-ready to graduate from the sapper course. So I 
certainly wanted to give a shout out to what I think is great 
work being done at Fort Leonard Wood.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you very much.
    And let me just say there is a real risk for anybody 
discussing this issue to appear insensitive or politically 
incorrect. And I really appreciated the way the chairman began 
the discussion this morning by outlining the very significant 
role that women, including members of this committee, have made 
for the military in terms of aviation, in terms of very, very 
difficult and demanding jobs. And, Mr. Chairman, I appreciated 
you pointing out that is not what this hearing is about.
    What this hearing is about and what this change is about is 
the very demanding subspecialty of close combat. And as the 
chairman pointed out, close combat is brutal. It is physically 
brutal. The training for that is physically brutal. And so the 
question is how can we open this to a group of people when the 
physical realities seem to indicate that this is really a 
departure from what can work.
    Let me ask General Neller and General Milley. General 
Neller, let me start with the infantry officer course. Women 
have entered this course. Am I correct? But no women have 
passed this course. Am I correct there?
    General Neller. Yes, sir. 29 marine officer females have 
attempted and have not yet successfully completed the course.
    Senator Wicker. Why is this test so rigorous? Why is it 
necessary it be so rigorous?
    General Neller. It is an MOS-producing school.
    Senator Wicker. And for the benefit of people watching that 
might not know all of our jargon, tell us what MOS----
    General Neller. Military occupational specialty. This is 
where a marine officer goes to become MOS qualified to lead an 
infantry platoon, rifle platoon, or a weapons platoon. So the 
standards that exist there involve tactics, physicality, 
physical fitness, understanding weapons, and it is a very tough 
and demanding course.
    Senator Wicker. Why?
    General Neller. Because they are going to lead their 
marines in combat, and they have to be able to lead from the 
front and they have to be able to understand all aspects of 
their profession. And they have to be physically fit enough and 
strong enough to be able to withstand the rigors of combat. And 
so the attrition is 25 percent of the men that go to this 
course. So it is a very tough, demanding course.
    Senator Wicker. General Milley, would you comment on that 
in the same vein, sir?
    General Milley. I would agree with General Neller in that 
the rigors of ground combat are brutal and they are hard, and 
we have very, very high standards and they are directly related 
not to gender. They are related to the combat tasks that you 
are expected to execute engaged against the enemies of our 
country. And we have developed and the Marines have developed 
very, very rigorous standards over many, many years. So those 
that make it, great. And if they do not, then they do not.
    Senator Wicker. You know, we have had testimony from 
Secretary Mabus that reducing the standards would be 
unacceptable. Members of this committee have reiterated that. 
That is absolutely something that must not be done. But it is 
hard to imagine down the road, 5 years from now, 10 years from 
now, if we do not have successful graduations from this 
physically demanding program--it is hard to imagine that this 
conversation will not take a different tone. And I do not see 
how we can guarantee that in the future, these standards will 
not be diminished.
    And so I would just say, you know, I realize that you are 
in a tough spot, and you two generals have given us your best 
military judgment and that is what we are asking you in the 
testimony here.
    But as Senator McCain mentioned, we have an overriding 
mission, and that is to overwhelm the enemy however we engage 
them. And in this special part of combat where it is close 
combat, it never needs to be a fair fight. We need to put our 
strongest and we need to put our best and we always need to 
have the best people.
    Let me ask you this, General. When people who are unlikely 
to pass the test are admitted, are we expanding the pool of 
candidates to accommodate women candidates for the infantry 
officer course? Are they keeping someone who might pass from 
getting a shot at this? Is that a consideration that we need to 
think about at all?
    General Neller. Senator, any officer at the basic school 
who wants to compete for an opportunity to be an infantry 
officer has the opportunity to do that.
    Senator Wicker. Are there limited numbers of slots?
    General Neller. There is a number per course, but if the 
course were full, they would be able to elect to stay. But each 
graduating class has a certain number. And there is a period of 
time. Sometimes the course is full and we allow a group of 
officers to stay and prepare. There is actually a preparation 
time because of the rigors of the course. So there is no effort 
to deny anybody an opportunity to compete.
    Senator Wicker. Well, I appreciate the task that you have 
been given as somebody who takes orders, and I wish you the 
best. We want to work with you, but I must say I have serious 
misgivings about moving to this particular point in our 
military.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    I hope my good friend from Mississippi is not suggesting 
that if all of the positions are opened up to women, that 
standards will automatically decline over time. That is what it 
sort of sounded to me like you were saying. So I hope that is 
not----
    Chairman McCain. I am sure the Senator can give you an 
explanation in private.
    Senator Shaheen. Thank you, Mr. Chairman.
    I was pleased to hear everyone who has spoken today talk 
about the performance of women on the battlefield time and 
again and pleased to hear most of you say that if a woman meets 
all the standards for the position, that she is qualified and 
that she should be allowed to serve and that should be the end 
of the discussion and that now the important thing is to focus 
on implementation of this policy. So I appreciate that and hope 
that on this committee and in Congress, we can do everything 
possible to support you in that effort.
    Secretary Mabus, you have received criticism, as has been 
indicated this morning, for your support of combat integration. 
And I wonder if you could elaborate. You alluded to why you 
think this is so important. But can you elaborate on why you 
think it is important and how you think it could strengthen our 
all-volunteer force?
    Mr. Mabus. Senator, a more diverse force, as you heard from 
the question from Senator Reed, diversity of outlook, diversity 
of experience is a stronger force. We have proven it over and 
over again. When we integrated the armed forces in the late 
1940s, we came out with a stronger force. The same thing when 
we began to recruit larger numbers of women in the 1980s, we 
came out with a stronger force. The same thing when you 
repealed Don't Ask, Don't Tell, we came out with a stronger 
force at the end. And as long as you keep the standards and as 
long as those standards are not arbitrary, that they are 
operationally relevant, they are job-related, then gender ought 
to be irrelevant because what a marine on the line wants to 
know about any marine on either side is did they have to meet 
the same standards. Do they have to do same things that I had 
to do to be here?
    And that is why I believe that this will strengthen the 
armed forces, that this will strengthen the Marine Corps. 
Senator Reed asked about submarines. We have seen how it has 
strengthened Navy units that are fully integrated, and it is 
virtually every one. So I do believe that a more diverse force, 
not about quotas, not about gender, but just about experience 
and perception, is a stronger force. And that is all of our 
jobs, is to make this a more effective, more lethal fighting 
force.
    Senator Shaheen. Thank you very much.
    Secretary Carter directed the services to provide their 
final detailed implementation plans no later than January 1st 
of 2016. General Neller and General Milley, can you confirm 
that those implementation plans have been provided? And do they 
have to be approved, and has that been done yet?
    General Neller. Senator, we provided our plan to the 
Secretary of the Navy, and he forwarded it to the Secretary of 
Defense. We are still waiting for those plans to be approved, 
and we expect that that is going to happen here shortly.
    Senator Shaheen. General Milley?
    General Milley. Same thing, Senator. We provided our plan 
to the Secretary of Defense, and we are waiting on approval.
    Senator Shaheen. And you expect that to happen in the near 
future?
    General Milley. I really do not know when. I do expect it 
at some time in the relatively near future, but I do not know 
when.
    Senator Shaheen. Again, part of that directive required the 
services to begin implementation no later than April 1st, 2016. 
So are we assuming that we are on course to do that? Is 
everybody in agreement with that?
    General Milley. Well, it is no later than 1 April pending 
approval. So the Secretary had a session with us and he told us 
execute when I have approved your plan. The target date is 1 
April, but we are not supposed to execute prior to his 
approval.
    Senator Shaheen. General Neller?
    General Neller. The same thing, Senator. As General Milley 
said, this is not going to happen 1 April that we are going to 
see--I mean, some of it has already happened. We have got 239 
females in what were previously restricted units in MOS's they 
already hold, and we have been doing that for several years. So 
that is already ongoing. But beginning to recruit those that 
can meet the standards that now exist before you go to recruit 
training, while you are at recruit training, and the MOS 
standards at school--that has not yet begun, and that is going 
to take some time.
    Senator Shaheen. I am out of time, but my final question 
was, does part of the plan address a response to concerns that 
may be raised by other folks who are part of this effort about 
fully implementing the policy? We will submit that for the 
record to ask you to respond to that.
    [The information referred to follows:]

    Mr. Murphy. Yes. The Army is providing leaders and Soldiers with 
integration education and training to enhance our integration efforts. 
This is supporting leadership efforts to facilitate the cultural change 
necessary to ensure successful gender integration into all Infantry and 
Armor units.

    General Neller. The Marine Corps will use both an Education Plan 
and an Assessment Plan to address the concerns and questions of service 
members during integration. The Education Plan will use a train-the-
trainer approach to connect with all Marines throughout the Corps in 
both the active and reserve components. The curriculum will include 
classes on the Integration Plan, relevant orders and directives, best 
practices, leading institutional change, and understanding cognitive/
unconscious bias. Marines will be led through relevant vignettes to 
foster healthy discussion and address potential issues. Mobile training 
teams made up of trained subject matter experts will start training O-5 
and O-6 level commands throughout the Corps this May. Those leaders, in 
turn, will educate and train their subordinates until every Marine has 
been addressed by his or her leader regarding this issue. The Marine 
Corps will also use our online integration education portal to provide 
additional, enduring resources for all Marines to help address these 
issues as they arise.
    Furthermore, the Integration Implementation Assessment Plan 
provides a feedback mechanism that will help Marine leaders evaluate 
the progress of integration and identify any issues that need to be 
addressed. A variety of direct and indirect indicators will be 
available to help determine whether Marines have questions or concerns 
about integration that persist or could negatively affect progress. 
Other indicators such as reenlistment rates and propensity to serve in 
ground combat arms MOS's will reflect progress. Finally, the Assessment 
Plan will collect empirical performance-related data that can be used 
to further inform Marines and challenge misconceptions about 
integration.
    Both the Education and Assessment Plans are enduring plans that 
will comprehensively, responsibly and convincingly inform Marines, both 
leaders and subordinates, how to successfully manage integration 
throughout our Corps.

    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair. I do have a statement 
followed by questions.
    Chairman McCain. Without objection, your statement will be 
made a part of the record.
    [The prepared statement of Senator Ernst follows:]

              Prepared Statement by Senator Joni K. Ernst
    As I have said on numerous occasions, I fully support providing 
women the opportunity to serve in any military capacity, as long as 
standards are not lowered and it enhances our combat effectiveness. 
However, I remain concerned that some within the Administration, and 
some of my colleagues in Congress, are rushing toward this historical 
change in policy without much concern for the second and third order 
effects to our men and women in uniform and our combat capabilities.
    In order to ensure women are fully integrated into these previously 
closed positions, the implementation strategy must be fully developed, 
and methodically and deliberately implemented, to include having an 
understanding of second and third order effects to ensure we do not set 
women, or men, up for failure. These are the men, and will be the 
women, who meet our enemies in close combat--their lives depend on it.
    Over the past few weeks, I have visited Fort Bragg, NC and Marine 
Corps Base Quantico, Virginia to speak with Soldiers and Marines about 
this topic. During my trip to Fort Bragg, I sat down with special 
operations soldiers and paratroopers from the 82nd Airborne Division to 
discuss gender integration. At Quantico, I had the same open discussion 
with Marine infantrymen and scout snipers. Both of these groups 
comprised mostly of mid to senior level NCOs and junior officers--the 
servicemembers who over the past 14 years of war have met the enemy in 
close combat--and who will do so again in the future with their female 
counterparts.
    Our discussions began with the understanding that gender 
integration is the new policy, and now it is time to move forward. 
Primarily, these young Soldiers and Marines were concerned that gender 
integration was not being done for the right reasons--to enhance their 
combat capabilities--and instead as a social experiment. To this point, 
even as a supporter of gender integration, I share their concern due to 
the haphazard way this process has been led by some in DOD's civilian 
leadership. This was especially troubling as we witnessed a 
distinguished military leader muzzled, inappropriate comments from 
civilian leadership about our female Marines, and disturbing, 
unmerited, and unprofessional assertions that our Marine leaders do not 
value the service of our female Marines.
    The other primary concern expressed by these Soldiers and Marines 
was the implementation strategy, for which I also share their concern. 
This Congress is being asked to support a policy for which the 
implementation strategy--which is key to ensuring our military will 
maintain its combat effectiveness--has not yet been fully developed or 
revealed. Nor has it taken into account the impacts on women's health, 
lodging, physiological differences between men and women which could 
lead to female physical fitness test scores, on average, being lower 
than their male counterparts, and how that could affect their ability 
to compete for promotions, schools, and senior command positions.
    For example with command positions, most of our Army senior leaders 
have served in elite units during their time as junior and field grade 
officers--which is often key to being slotted into command positions 
from battalion commander and above. GEN Milley is a Special Forces 
veteran, and others have served in the elite 75th Ranger Regiment like 
the Army Vice Chief of Staff, LTG John Nicholson--who may be confirmed 
as the next commander of our troops in Afghanistan, our next potential 
CENTCOM commander, the 18th Airborne Corps Commander, and division 
commanders of the 101st and 82nd Airborne Divisions, the 10th Mountain 
Division, and 3rd Infantry Division.
    Also, while there have been three female graduates of Ranger School 
in the Army, the unfortunate truth is an Infantry officer without a 
Ranger tab is often looked down upon by their fellow infantrymen, and 
tab-less Infantry officers are often not as competitive for senior 
leadership positions.
    In the Marine Corps, some of our female Marines have voiced 
concerns that they anticipate there will be pressure to lower standards 
if not enough of them are able to qualify to serve in combat positions. 
Lowering standards for more female participation is against the best 
military advice of our military leaders, but I agree with these women 
that the pressure will come--likely from civilian leadership--who have 
motives other than supporting gender integration to enhance our 
nation's ability to destroy our enemies on the battlefield.
    Female Marines have also voiced that leadership and training will 
not solve physiological differences between men and women, and some are 
worried that they will be involuntary assigned to combat MOSs or even 
assigned to an infantry unit in a support position which would require 
them to meet the higher physical standards for infantry units.
    Furthermore, retention of female Marines and their ability to 
continue to serve if they are injured while serving in a combat 
position is an area of concern for some of them. The data is clear--
women do get injured at a higher rate than their male counterparts when 
performing combat arms tasks. Will we allow women to continue to serve 
in another role or will we medically discharge them if they are injured 
while serving in a combat position or combat unit? If it becomes 
commonplace that female combat arms Marines are injured while training, 
how will that impact unit cohesion, especially for those who will be 
platoon and company commanders?
    After nearly 15 years of war, our country, and many within this 
Administration, are disconnected from our combat soldiers who have 
borne the brunt of the battle. These Soldiers and Marines are the best 
we have. They have taken the majority of the casualties since the 
founding of our nation and on the battlefields from Yorktown, 
Gettysburg, Iwo Jima, and Normandy--they have made the difference 
between Americans enjoying life, liberty, and the pursuit of happiness, 
or being subjugated by foreign powers. Their life is one of mostly 
suffering and hardship, and they honorably carry that mental and 
physical burden not only in service, but afterwards as well. We must 
honor them by ensuring this process moves forward in a thoughtful and 
methodical way.

    Senator Ernst. Thank you, Mr. Chair.
    Let me be clear. I fully support providing women the 
opportunity to serve in any military capacity as long as 
standards are not lowered, our combat effectiveness is 
maintained. But in order to ensure women are fully integrated 
into these previously closed positions, the implementation 
strategy must be fully developed and methodically and 
deliberately carried out. It must include an understanding of 
second- and third-order effects to ensure that we do not set 
women or men up for failure. These are the men and will be the 
women who meet our enemies in close combat. Their lives depend 
on it.
    That is why over the past few weeks I have visited Fort 
Bragg, North Carolina and Marine Corps Base Quantico, Virginia 
to speak directly with Army and Marine infantrymen about this 
topic. I spoke with groups comprised mostly of mid- to senior-
level NCOs and junior officers, the service members who over 
the past 14 years of war have met the enemy in close combat and 
who will do so again in the future with their female 
counterparts.
    After those conversations, it is clear that we need to 
ensure that we are taking into account the impacts on women's 
health, lodging, physiological differences between men and 
women which could lead to female physical fitness test scores 
on average being lower than their male counterparts and how 
that could affect their ability to compete for promotions, 
schools, and senior command positions.
    I would encourage all of the members of this panel and our 
witnesses to go talk to our service members, hear for 
yourselves what their concerns are, and help ensure we 
ultimately get this right.
    Our combat armed soldiers and marines are the best we have. 
They have taken the majority of casualties since the founding 
of our Nation and on battlefields from Yorktown, Gettysburg, 
Iwo Jima, and Normandy. They have made the difference between 
Americans enjoying life, liberty, and the pursuit of happiness 
or being subjugated by foreign powers. Their lives mostly 
involve suffering and hardship, and they honorably carry that 
physical and mental burden not only in service but afterwards 
as well. We must honor them by ensuring this process moves 
forward in a thoughtful and methodical way.
    General Neller, I would like to start with you, sir. As you 
know, some of our female marines have voiced concerns that they 
anticipate there will be pressure to lower standards if not 
enough of them are able to qualify to serve in combat 
positions. While I am glad that lowering the standards for 
greater female participation is against your best military 
advice, I agree with these women that pressure may come likely 
from civilian leadership who may have motives other than 
supporting gender integration to enhance our Nation's ability 
to destroy our enemies on the battlefield.
    Also, in order to boost participation, some female marines 
have voiced that leadership and training will not solve 
physiological differences between men and women, and some are 
worried that they will be involuntarily assigned to combat 
MOS's or even assigned to an infantry unit in a support 
position which would require them to meet the higher physical 
standards for infantry units.
    Do you share these concerns, sir? And what concerns do you 
have regarding the retention of our best female marines who may 
now be assigned to combat arms MOS or units?
    General Neller. Well, Senator, as the committee members in 
unanimity have talked about today, we would have to do 
everything possible to not lower standards. In fact, we should 
be looking at how we can raise the standards to improve our 
capability.
    Right now, there is no intent to involuntarily assign 
anybody who wants to compete in any of these MOS's. A little 
more problematic is the assignment of a marine in a non-combat 
MOS but assigned to one of these units because in the past, 
because it was restricted to men, we did not ask the 
communicator or a supply marine if they wanted to go to an 
infantry battalion. So we have established an assignment 
policy, which has a minimum physical standard, before we would 
do that.
    So we are working our way through that and that is part of 
the implementation process. But we are aware of that. That is 
kind of an outlier that was not considered as part of this 
decision.
    As far as career progression, there are a lot of things we 
do not know and we are going to find out and we will have to 
continue to monitor. We are looking at this as a decade, 
minimum, long study to see how this all turns out, what effect 
is there on propensity to enlist, propensity to reenlist. What 
is the competitiveness for promotion? What is the injury rate 
for all marines? Because we really have not looked at this in 
the past because there were enough people, and there are still 
enough people.
    So those are concerns, but they are concerns about 
something we do not know the answer to. So there are a lot of 
different views, as you found, when you talked to people. So we 
are taking all of this into consideration. We are going to try 
to mitigate as much of this as we can. And then we will come 
back and report, and we will keep the data and we will be able 
to have a better analytical view on how this is all working as 
we go through this in a very methodical, objective way.
    But the three lenses we are looking through in this whole 
process is the effectiveness and readiness of the unit, the 
health and welfare of all the marines, and the ability to 
manage the talent.
    I think one of the things that I am confident is going to 
be--in fact, I know it has already happened--is the assignment 
of female marines to previously restricted units in the MOS's 
that they have. In the past, if you were an infantry or armor 
battalion commander and the best--pick an MOS--intelligence 
officer, communications officer, motor transport officer in the 
division was a woman, she could not work in your unit. So now 
you have the opportunity to have her serve with you. So the 
talent pool has expanded, and that should make the unit better.
    Senator Ernst. Very good. Thank you, General.
    General Milley, many of the command positions--with those 
positions, most of our Army senior leaders have served in 
various elite units. You have served in a special forces 
capacity. Many of those advancing to very high levels within 
the Army have served in Ranger regiment and other high-
performing infantry type units.
    While there have been three female graduates of Ranger 
School in the Army, which I applaud--I think that is 
tremendous--the unfortunate truth is an infantry officer 
without a Ranger tab is often looked down upon by their fellow 
infantrymen, and tabless infantry officers are often not as 
competitive for senior leadership positions, just like many of 
those that will serve in these elite type units with very, very 
high standards.
    So as you branch female officers to infantry and 
potentially accept branch transfers for captains and field 
grade officers, how will this affect their ability to integrate 
into the infantry community and be competitive for those higher 
levels of command?
    General Milley. A couple of points, Senator. One is you are 
correct. There is an institutional bias, especially in the 
infantry, if you do not have a Ranger tab, on career 
progression. So we encourage all infantry officers to attend 
Ranger School, a very demanding school, as you well know. And 
for women, it would be the same thing. If they go in the 
infantry, we would encourage them to go to Ranger School 
because it does enhance your performance and skills, but it 
also enhances your credibility with peers, superiors, and your 
subordinates as well. So Ranger School is a very important 
school especially for the infantry.
    As far as long-term goes, the core business, the core 
business, of the United States Army is to close with and 
destroy the enemies of our country in close combat. And that 
means infantry and armor, supported by attack aviation and 
aviation and combat engineers. But infantry and armor is the 
very essence of the United States Army. And those, as we note 
and we are here discussing, have been previously closed. So the 
senior officers of the Army over many, many years have been 
infantry and armor officers because that is the essence of 
their business, so to speak. So I would expect that over time, 
25-35 years sort of time, we will see women in infantry and 
armor units eventually rise to command.
    We opened up Apache helicopters 25 years ago and recently 
we now have Apache battalion commanders that are female. So I 
think the same phenomenon will occur over an extended period of 
time.
    Senator Ernst. Very good, gentlemen. I appreciate that.
    I do have one question and I would just like a response for 
the record, follow-up. But, Secretary Mabus, I was disturbed to 
read that the Director of Naval Intelligence has not had active 
clearance for over 2 years. Your decision to keep him in a 
position with such great responsibility without access to 
critical information sets a terrible example for our sailors 
and makes a travesty out of naval intelligence and our national 
security. And for the record, I would like to know what is 
preventing you from having a sailor with an active security 
clearance in this position today. And I would like a follow-up 
on that, sir.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Do you want to respond now?
    Mr. Mabus. Senator, I am as frustrated as you are about 
this particular individual. There is an investigation ongoing. 
We have no information one way or the other as to whether 
anything improper happened. But because of the sensitive place 
that he occupied, I felt that I had to withdraw his access to 
classified information until the investigation was finished. 
The investigation has drug on and on and on. And we are in the 
process of putting up another officer to take that person's 
place.
    Senator Ernst. Thank you, Mr. Secretary. 2 years is a very 
long time not to have access. And I do believe that there 
should have been another officer assigned to that billet.
    Mr. Mabus. Senator, I agree with you. This has been a very 
long, very drawn-out process, and it has been frustrating for 
everybody involved.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chair.
    What I find fairly remarkable in this conversation is the 
amount of consensus from both our witnesses and from people on 
the dais here that we should simply set MOS standards based on 
the performance that we need for the job and then let the chips 
fall where they may. And sometimes in the case, for example, of 
the military infantry officer school, that is going to be some 
very, very difficult standards to meet. That said, I have no 
doubt that some day a woman is going to meet those standards.
    So, General Neller, I wanted to ask you, given your 
previous support for a waiver, do you have any concerns with 
that kind of approach of simply setting the bar where it needs 
to be for the performance that you need and then letting the 
chips fall where they may?
    General Neller. Well, Senator, it was brought up by 
Secretary Mabus--and it is a fact--that part of the value of 
the evaluation we did was to come up with these standards. So 
now we have these standards. I mean, there were always 
standards. There were standards because any of these marines 
that were involved in the evaluation completed an MOS school 
which had task admission standards to which they had to 
successfully complete. So it was not like there were no 
standards. To get into the school, the females had to go and 
pass the male scoring on the male PFT [Physical Fitness Test] 
and CFT [Cadet Field Training].
    So where we are now is we have a decision. We provided our 
best military judgment based on what we learned in an 
evaluation involving teams, crews, and squads, something that 
has never ever been done, not just in the history of the United 
States, but from what we can tell, nowhere. No one ever looked 
at it in this way.
    That said, we have a decision and we are in the process of 
moving out, and we have established a process to where any 
marine who wants to serve in these physically demanding MOS's 
has to meet a certain standard. And we will see where the chips 
fall.
    Again, our hope is that everyone is successful, but hope is 
not a course of action on the battlefield. So we will learn and 
we will study and we will do everything we can because it is 
important, as General Milley brought up and everybody has 
brought up, that we have to be successful on the battlefield. 
And marines have always been successful on the battlefield, and 
I am confident we will in the future.
    Senator Heinrich. General, as you heard, Secretary Mabus 
brought up the fact that there were surprising gaps in set 
standards for some of these MOS's. Do you have an opinion as to 
what the impact on the service is going to be simply on the 
Corps of clearly articulating the standards in all of these 
MOS's and how that will impact overall performance for the 
Corps moving forward?
    General Neller. I think, based on the fact that we have set 
these standards and that the overall quality of the marines 
that serve in these MOS's should be higher than it was in the 
past.
    Senator Heinrich. Thank you.
    Secretary Mabus, I was hoping you could expand a little bit 
on what Senator Reed brought up around the transition 
particularly within attack submarines, how that is going on the 
USS [United States Ship] Mississippi, and how you feel about 
that process overall.
    Mr. Mabus. The process of integrating women onto all of our 
submarines--as you know, it started with ballistic missile 
strategic submarines and guided missile submarines. It is now 
moving to attack submarines. It has gone fine. In all of these, 
the first two have completed a lot of cruises now. We have got 
a lot of experience under our belt. We have seen that women 
earn their dolphins at the same speed as men do in the 
submarine service.
    It is part of the implementation experience that we can 
bring to bear for this, having a detailed implementation plan, 
having a well thought-out way to do it, having a deliberate but 
timely way to do it. The attack submarines were done last 
because of the closer quarters, and a few, but only a few, 
physical changes had to be made. And we are very pleased not 
only with the integration of women officers, but the beginning 
of the integration of women enlisted on all types of Navy 
submarines.
    Senator Heinrich. Well, thank you, Secretary, for your work 
on that.
    Chairman McCain. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman, and thanks to all of 
you for your service to our country and for your testimonies 
today.
    This is a subject like so many others that we cover on this 
committee that is of exceptional importance to our country, to 
our national security. As we approach this issue, which is 
fraught with a lot of opinions, a lot of facts, a lot of 
details, I hope that we will maintain our focus on maintaining 
the readiness and the capability of our men and women in 
service and especially on the safety of the men and women who 
protect us.
    First of all, General Milley, I wanted to follow up on a 
question that was asked by Senator Ernst to General Neller. She 
asked General Neller whether women might be involuntarily 
transferred into some of these combat positions against their 
will. Do you want to provide an answer from the Army 
perspective?
    General Milley. I am going to have to give you ``it 
depends.'' Right now, we have no requirement because we are 
filling our needs for the infantry in both officer and 
enlisted, and currently we do not involuntarily put anyone in 
the infantry, but again, we are meeting our needs. 10 years, 
15, 20 years in the future, it depends. So look back at World 
War II. A lot of people were involuntarily put in the infantry. 
But right now, we do not and I do not anticipate that situation 
at any time in the near future.
    Senator Lee. Okay. Thank you.
    General Neller, the Marine Corps report stated that there 
were some noticeable differences in performance between all-
male squads on the one hand and those that were gender 
integrated, not just squads, but teams and crews as well. In 
your professional military opinion, could you tell us what were 
the most notable reasons for these differences and then also 
whether these are factors that could easily be remedied through 
training and improved techniques and processes?
    General Neller. Senator, when we put together the Ground 
Combat Element Integrated Task Force, there were infantry and 
in infantry you have mortars, you have machine guns, you have 
rockets, you have TOWs [Tube-launched, Optically tracked, Wire-
guided]. There were tank crews, artillery crews, amphibian 
vehicle crews, and light armor vehicle crews. So in each of 
those, there were some number of differences between the 
integrated and the all- male crews, squads, or teams, but the 
two that were most significant, what we would call load-bearing 
units or the infantry, march under load with a weighted load 
over a distance. And then the other was during a fire and 
movement drill with load, as you get fatigued, the effect on 
your accuracy when you fired your weapon.
    So the study showed two things. Under the march under load, 
the heavier the load, the more degraded the ability of the 
integrated squads. And then when you would do movement to 
contact, the accuracy of the integrated squads and the firing 
of females due to physiological things that are documented was 
lower.
    Senator Lee. And are those things that can be remedied 
through improved training and techniques?
    General Neller. I think to some degree but a lot of it is--
we learned that being--and the same applies to any one of a 
smaller stature. Being big, strong, having a certain body mass 
gives you an advantage. So one of the things I have heard as I 
have gone around and talked to the female marines is, hey, I am 
out working out, I am lifting weights, I am getting bigger, and 
now I am outside the height and weight standards. Are you going 
to change the height and weight standards? And we are looking 
at that right now. So we know that mean body mass has an effect 
on your ability to carry a load.
    As far as the conditioning and your ability to have a 
higher level of energy and exert yourself, that is what we are 
going to find out, what we are going to learn.
    And again, we did this for just 5 months. We do not know 
what is this going to do over years and years and years of 
being in these particular occupational fields. We know 
anecdotally what the effect is on the male body, and we do not 
have data yet, and eventually we will, of what the impact is on 
the female.
    Senator Lee. My understanding is that one of the findings 
in the report that was released by the Marine Corps indicated 
some evidence of higher injury rates among women than men when 
asked to perform the same tactical tasks. Can you tell us how 
this factor, when extrapolated across combat units in the 
Marine Corps--call you tell us how that might impact your 
overall military readiness and capability and how you could 
deal with that?
    General Neller. We know from data that we have now for 
certain points of training that female marines suffer a higher 
incidence of injury, normally lower body injury, than men. So 
part of the review, not just for body size and height and 
weight, is also conditioning. So the one way we believe we can 
do this is through better preparation, better conditioning to 
mitigate that. So that is something that we do not know what we 
do not know. And that will be one of the things that we are 
going to have to continue to study and monitor as we go through 
this.
    Senator Lee. Thank you.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chair.
    Before beginning my questions, I cannot resist pointing out 
that 40 years ago I sat back where you folks are sitting, and 
my boss, Senator Bill Hathaway from Maine, led the effort to 
open the military academies to women, which at the time was a 
radical idea. So there is some history here for me in this 
conversation.
    It seems to me that this is really about talent pool. Mr. 
Secretary, you mentioned that. Mr. Secretary, you also 
mentioned it. We need the best people we can get, whoever they 
are, wherever they come from. And the shocking figure that we 
have already discussed today is that only one out of four young 
people is qualified for military service either for physical or 
other kinds of intellectual issues. We need people. And the 
secret of the success of this country in my opinion is access 
and opening up access to more and more people. And I have no 
doubt that limiting access to virtually any job, eliminating 50 
percent of the talent pool is always a bad policy.
    The question, it seems to me, though is how do we design 
gender-neutral standards that are in fact gender- neutral but 
also meet the requirements of the job. And that is going to be 
the challenge. General Neller, I thought your exchange with 
Senator Lee was very informative. And the issue, for example, 
of weight. I visited the Marine Corps officer school in 
Quantico and saw what those young people have to carry. As I 
recall, the lightest pack was something like 75 pounds and they 
go up from there. I think your response was an important one, 
that this could be a question of, A, who physically can do it 
regardless of gender and, B, training and readiness over a 
period of time.
    I think the great danger, though, is that we do not let the 
standards diminish in order to meet some kind of arbitrary 
requirements. The word ``goals'' has been used here. Goals, 
unfortunately, can often turn into quotas. And, Mr. Secretary, 
I presume that that is not your intention in any way, shape, or 
form.
    Mr. Mabus. Absolutely not, Senator. Number one, it would go 
against the law. But number two, you cannot lower standards. 
This is not about quotas. It is not about equality of outcome. 
It is about equality of opportunity. And you have got to keep 
those standards. You have got to keep them job-related. You 
have got to keep them very rigorous, and you have got to evolve 
those standards as our threats and as our challenges evolve, 
but they have got to evolve for everybody.
    Senator King. I would assume that the performance of women 
in these very rigorous top-end MOS's, Ranger School, Marine 
training, will improve over time as they are given the 
opportunity to set their sights on that career. General Milley, 
would you agree with that?
    General Milley. I would expect that to be true over time as 
women's experience in those skills is expanded over time. 
Absolutely.
    Senator King. And it seems to me, General Neller, that may 
be one of the answers to the data that you developed in this 
initial study because it was an initial study. In other words, 
you did not have 2, 3, 4, 5, 10 years of women who had worked 
through this process. Would you agree that that may be the 
case?
    General Neller. We would have liked to have had more time 
to look at this because I think anyone that does this type of 
analysis would tell you that a year-long is not enough to draw 
a lot of conclusions. We have the data that we have. So that is 
why, Senator, part of our implementation process is to continue 
an analysis of a whole number of variables and factors.
    And I do, though, agree that the women that are in the 
Marine Corps today are very different, not that the ones that 
were there before were not of quality and great Americans and 
served our Nation well, but the overall quality of marines in 
general is much higher than it was when I joined this 
organization 40 years ago. And our hope is people will maybe 
see this as an opportunity and then they will want to compete 
in whatever it is.
    So I think--I mean, I have got a daughter. I raise my 
daughter in the way I raise my daughter. She is very 
competitive. And I think people raise their girls, females, 
Americans. They do different things than they did 30 years ago. 
It is a different place. So we will find out.
    That said, there are certain physiological differences that 
exist. There are always going to be people that are outliers.
    I think what Senator Ernst asked me was a fair question. 
Where does the top of the women capability overlap with the 
male capability, and is that going to make them competitive in 
the long run? We are going to find that out, but that is part 
of what we do not know.
    Senator King. And it seems to me part of what this whole--
--
    Chairman McCain. Your time has expired.
    Senator King. I am sorry.
    Chairman McCain. Senator Fischer, with Senator Sessions' 
indulgence.
    Senator Fischer, Thank you, Mr. Chairman, and my thanks to 
Senator Sessions. I need to get to the chamber to preside, but 
I did want to ask a few questions here.
    When we are going to be looking at monitoring the 
implementations, how well prepared do you think we are at that 
process specifically with regard to making changes? If I could 
ask Secretary Murphy and Secretary Mabus about that. How do the 
services plan to track the outcomes of the changes and ensure 
that when we see any unintended consequences come forward that 
we can act on those promptly and be able to address any 
concerns that we see? Secretary Murphy, if you would like to 
begin.
    Mr. Murphy. Thanks, Senator.
    As we said, Senator, we are going to have gender- neutral, 
operational-relevant standards with no quotas whatsoever. But 
as the Army, we assess everything as we move forward. We assess 
physical fitness, how you are doing your job, OER's [Officer 
Evaluation Report], et cetera. So we will continue assess this 
as we move forward and make sure we are doing what is necessary 
to accomplish our mission, and that is to fight and win our 
Nation's wars.
    Senator Fischer, And do you have that in your 
implementation plan? It is always good to say you are going to 
be flexible, you are going to be able to address it, but are 
there really steps that are laid out in your plans?
    Mr. Murphy. Yes, ma'am. I would also like if the Chief 
could respond as well, that would be helpful.
    Senator Fischer, If we could have Secretary Mabus first 
please.
    Mr. Mabus. As part of the formal process of looking at this 
continually, one of the things that is required by the law and 
one of the things that is in everybody's implementation plan is 
that the inspector general of each service will look at, number 
one, whether these standards continue to be validated, job-
oriented, mission-specific, gender-neutral, but number two, 
what are the results of this integration. The first report is 
to be undertaken this year as we begin the integration process, 
and each service has already ordered that review to go forward.
    Past that, as Secretary Murphy has very correctly pointed 
out, we are always looking at every single standard as threats 
evolve. As I said in my opening statement, infantry school 
today is very different than it was just 25 years ago because 
our threats have changed, and we are going to continue to do 
that. And that is one of the things I think that marines do 
exceptionally well. They adapt. They improvise and they 
overcome.
    Senator Fischer, Thank you, Mr. Secretary.
    And, General, would you like to have any comments?
    General Milley. Just briefly. We have developed explicit 
written, gender-neutral tasks, conditions, and standards for 
every MOS in the United States Army right now today. And when 
we execute for the infantry, armor, and special forces, those 
will be implemented. They will be tested and they will be 
validated and they will be monitored closely. The Secretary of 
Defense has established a Secretary of Defense level 
organization to monitor implementation. We have done the same 
thing at the Secretary of the Army, the Department of the Army 
Secretary, and we will be doing routine monthly and quarterly 
monitoring of implementation and execution of this.
    Training and Doctrine Command, United States Army, has 
primary responsibility for phases one and two. Our plan has 
four phases. And phases three and four primary responsibility 
is General Abrams and Forces Command, which is the operational 
force. That will be coming up next year and the year after 
that. So it is a very, very rigorous program of implementation 
and monitoring.
    Senator Fischer, And thank you for that very clear 
explanation. I appreciate it.
    General Neller, you had mentioned before that the Marines 
had studied some foreign militaries and what they have done 
with the integration of their women into the combat positions. 
Can you comment on any of the findings that you had?
    General Neller. We looked at the Canadian, the Australian, 
the UK [United Kingdom], and the Israeli militaries. The first 
three have integrated these MOS's. The numbers are very small, 
but the lessons they learned in speaking to the service members 
there that were part of that was leadership, maintenance of 
standards, setting up a cohort or some number of people to 
support so that the individual females in this case did not go 
down there completely cold. But the number one thing was the 
standards. They also mentioned the potential benefits of 
gender-separate recruit training.
    The Israelis I believe had done this at one time, and then 
they have walked away from it. They do have one predominantly 
female border unit. But they do not allow women to be assigned 
in these combat MOS's, infantry, armor, or airborne.
    Senator Fischer, What would be their reasons for that with 
the Israelis? Is it due to the standards that are in place, or 
is it concern about the neighborhood they live in?
    General Neller. I think there are a number of reasons, 
Senator, but I think one is they are just trying to take and 
make the best use of the talent of the population that they 
have. So if you go to an Israeli school that teaches these, the 
majority of the instructors are females teaching ground combat 
things.
    Senator Fischer, Thank you, sir, very much.
    Thank you, Mr. Chairman, and thank you, Senator Sessions.
    Senator Reed [presiding]. On behalf of the chairman, let me 
recognize Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And to all of our witnesses, this is an important issue, 
and I echo what Senator Heinrich said about the degree of 
consistency among the witnesses and folks here serving.
    A story that I find relevant. Women were not allowed to run 
the marathon in the Olympics until 1984. There was a belief 
that physically they would not be able to run it. The longest 
race for women in the 1980 Olympics in Moscow was a 1,500-
meter, and even that was somewhat recent. It had been an 800-
meter was the longest race a woman could run.
    Today, 30 years later, the men's world record in the 
marathon is 2 hours and 3 minutes, and the women's world record 
in the marathon is 2 hours and 15 minutes. There is an 
advantage to men. But that women's world record time would have 
won the gold record in the men's marathon during most of the 
history of the Olympics.
    And now--and this is a joke--the marathon is for wimps now 
because now there are ultra-marathons. One common ultra-
marathon event is a 2-day run, 48-hour run. Men have the edge 
on the track. The women's record is 370 kilometers in 2 days, 
and the men's record is 430 kilometers in 2 days.
    But there is another one that is kind of interesting to me. 
How fast can you through-hike the Appalachian Trail, 2,200 
miles? And there is a record for doing it all on your own, not 
having support, having to carry everything, big backpack 
carried. The men's record is 58 days and the women's record is 
54 days. The woman has the record for having to carry it all.
    Combat and military service is different. But what this 
tells me is--and, General Neller, you kind of talked about it. 
Daughters raised today are going to be raised different than 
daughters 30 years ago. When there is a social cap or ceiling 
or limitation, that sort of gets absorbed by people and they do 
not even focus on what they might be able to do. They get 
raised in a particular way with the thought that that cap is 
going to be there. When the cap is lifted, all of a sudden 
there are all kinds of possibilities and people start to focus 
on opportunities they might have and train themselves up for 
them. And just like when you lift the ban on running the 
marathon in the Olympics and allow women to do it, suddenly 
there are fantastic marathoners, ultra-marathoners, AT 
[Appalachian Trail] hikers with packs.
    Parenthetically the physiological difference in women in 
carrying weight leads a lot of backpack manufacturers to make 
different packs for women that can actually erase some of that 
physiological difference.
    I have a high confidence--a high confidence--in the 
American military and all the service branches to do this 
because you are always are super can-do and you always figure 
it out. I mean, I have that confidence in you.
    One of my kids, as some of you know, has been through ROTC 
[Reserve Officers' Training Corps] and OCS [Officer Candidate 
School] and TBS [The Basic School] and IOC [Infantry Officer 
Course] with women. It is more of a norm now than an earlier 
generation of Marines. And he understands how hard it is for 
everybody and that this will be a challenge to implement. But 
this is a can-do operation that is going to figure it out. I 
have complete confidence in them.
    I am kind of interested in the topic of standards setting. 
And, General Neller, you talked a little bit about this. I 
tried to write this quickly down. You talked about in preparing 
for integration of women in MOS's and studying it, you did a 
lot of studies of the standards. I think you said because of 
our standards setting, our overall quality will be higher for 
men and women.
    I would kind of like to ask all of you. Was the standards 
setting that you did and analyzed around the integration 
question, set aside integration of women into MOS's--did it 
have strong, independent value for your service branches to do 
that standards setting and analysis exercise in terms of 
figuring out what the right requirements for the MOS's are 
given the nature of contemporary warfare? And that is a 
question I would like each of you to address.
    General Neller. The standards that we established were 
established on 30 September, actually before the decision was 
made, because we recognized, as part of the analysis, that 
whether there was going to be an exception granted or not, we 
needed to have a more performance-related standard. I mean, 
there's training on the things you did. So we actually codified 
it. And so since that time, the men that have gone through 
infantry training battalion, armor school, artillery school, 
engineer school have been getting their MOS qualification based 
on the standard. And the completion rate has been 99-plus 
percent. So that just goes to the overall quality of the marine 
that we are getting now.
    So I have every confidence that if there is a female marine 
out there who can meet the other standards before they come 
into recruit training or what they have to do at entry level 
training and recruit training, we will find out. We will know 
because the females that did go through this training and get 
awarded the MOS--they did not have to do this. So, again, 
Senator, we do not know yet what we do not know. There are 
things you can train to, but you have to have the physiological 
capability to move fast and bear a load and lift heavy weights.
    Senator Kaine. I see my time has expired. Thank you.
    Senator Reed. Thank you. On behalf of the chairman, Senator 
Sessions.
    Senator Sessions. Thank you very much. And I thank all of 
you for sharing your thoughts with us on this important matter.
    General Neller, the Marine Corps did a study and completed 
it in 2015. Is that correct? And what was the purpose of that 
study?
    General Neller. Senator, the purpose of the study was after 
Secretary Panetta in January 2013 stated that there was going 
to be no exception for gender to assignment to MOS's in unit 
and gave the services a period of time to take a look at this. 
It was the final process of what we did. We first put female 
marines in previously restricted units and MOS's that they had. 
We sent 448 females through infantry training battalion to see 
how they would do, and then we realized we could not assign 
them to a unit, so we had to create a unit and we wanted to see 
how they did in the context, not just meeting individual 
standards but how they would function within a squad, team, or 
a crew.
    Senator Sessions. And do you feel like that was, as 
reasonably as you can, a fair analysis of the challenges that 
you would be facing if you moved to integration of combat 
units?
    General Neller. The evaluation was designed to try to 
replicate, as best we could in a live fire environment, those 
types of skills or tasks that you would have to do in combat.
    Senator Sessions. Now, the purpose of the report says this. 
``Central to this historic research effort has been the clear 
recognition that the brutal and extremely physical nature of 
direct ground combat, often marked by close interpersonal 
violence, remains largely unchanged throughout the centuries of 
warfare despite technological advancements.''
    Now, you served a long time in the Marine Corps. Do you 
agree with that?
    General Neller. The character of war may have changed with 
the overall nature of war, depending upon the fight you are in, 
at the end of the day can still come down to that type of an 
environment. Yes, Senator.
    Senator Sessions. Now, the report said this. The Marine 
Corps fights as units. Therefore, developing and maintaining 
the most combat-effective units must always be at the forefront 
of any contemplated institutional change. Do you agree with 
that?
    General Neller. I do.
    Senator Sessions. And do you agree with the report's 
finding, ``combat effectiveness, the health and welfare of 
individual marines, and talent management,'' are key evaluating 
factors on the performance?
    General Neller. Those are three of the major lenses through 
which we looked at the report and looked through 
implementation.
    Senator Sessions. Well, here are the summary of the 
research findings. See if they are inconsistent with your 
experience in the Marine Corps. Overall, ``all male squads, 
teams, and crews demonstrated higher performance levels on 69 
percent of the tasks evaluated--that is 134 tasks--as compared 
to gender-integrated squads, teams, and crews. The integrated 
squads were superior in two events out of the 134.'' The rest I 
guess were equal. Do you dispute that or is that consistent 
with your experience?
    General Neller. That is the data that we derived from the 
evaluation.
    Senator Sessions. Speed is important in combat. ``All male 
squads, regardless of infantry MOS, were faster than the 
gender-integrated squads in each tactical movement.''
    Lethality. All-male 0311 squads--that is the rifle 
infantry, rifleman squads ``had better accuracy compared to 
gender-integrated squads. There was notable difference between 
genders for every individual weapons system except the 
probability of hit and miss with the M-4.'' That is the 
individual carbines. Is that what the report found, and do you 
dispute that?
    General Neller. No, sir. That is accurate as to what we 
found.
    Senator Sessions. Also it found all-male infantry crew-
served weapons teams engaged targets quicker and registered 
more hits on target as compared to gender- integrated infantry 
crew-served weapons teams with the exception of M-2 accuracy. 
Was that part of the report?
    General Neller. It is.
    Senator Sessions. All-male squads, teams, and crews in 
gender-integrated squads, teams, and crews had a noticeable 
difference in their performance of the basic combat task of 
negotiating obstacles and evacuating casualties. So that is the 
combat lethality question.
    Health and welfare of the marines themselves. You put them 
in very stressful positions. ``In addition to performance, 
evidence of higher injury rates for females when compared to 
males performing the same tactical task were noted. Within the 
research at the infantry training battalion, females undergoing 
that entry level training were injured at six times the rate of 
male counterparts.'' Is the injury rate a factor you need to 
consider when you put people through training?
    General Neller. Yes, Senator.
    Senator Sessions. During the assessment, ``musculoskeletal 
injury rates were 40 percent for females compared to 18 percent 
for males.''
    And one more thing that people talk about. We cannot let it 
dominate our thinking. But how do you evaluate all of that? I 
mean, how do you evaluate the risk of injury and the ability to 
perform effectively on the battlefield when you consider the 
integration of combat forces? You made your recommendation, but 
how do you evaluate that?
    General Neller. Well, Senator, when we evaluate it, we are 
going to find out. This is part of what we found out and also 
what we found out, that we believe that there are ways that 
this can be, to some degree, mitigated. How much? Again, we do 
not know what we do not know. So the physical capability of the 
individual marine, their susceptibility to injury, their 
overall fitness, this is all part of the evaluation that 
everyone has talked about. And General Milley stated it on 
there. We have got very specific questions in areas that we are 
going to monitor as we go through this implementation process.
    Senator Sessions. Well, I have served in an Army Reserve 
unit for 10 years with fabulous women, soldiers and officers. 
The commander of that unit now is the first one that has 
received two stars in the unit's history. She is a two-star 
general and doing a great job, and we have tremendous military 
soldiers and officers who are women. And it is an important 
part of the military. And I think you are wise to do this 
careful evaluation and let us see how we can continue that 
tradition in the most smartest way.
    Senator Reed. On behalf of the chairman, Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    You were just asked a series of questions relating to 
differences in performance of women and men. And I think, 
General Neller, you indicated that there may be ways to 
mitigate these performance differences. But I am wondering. Did 
you come to the conclusion that--and we always have to worry 
about attributing cause and effect to any performance 
differences. So did you come to a conclusion that there is 
something innately about being a female that causes these kinds 
of differences in performance? Have you come to that 
conclusion?
    General Neller. Senator, I think the data, not just from 
this evaluation but data that exists throughout the sports 
world or other place is that there are physiological 
differences between the average male and the average female. 
Now, the question is to what degree can we mitigate that. So 
the conclusion, if we have come to anything, is, hey, these are 
things that we need to pay attention to. Now, whether they will 
manifest themselves in the future or not, we will find that 
out.
    Senator Hirono. So in those instances where what we are 
measuring is something that requires physical strength--I mean, 
there will be some women who are physically a lot stronger than 
men, but as a general proposition that where physical strength 
is measured, women will come out--they will be less able to 
perform. That is the conclusion you have drawn.
    General Neller. On the average, yes.
    Senator Hirono. So when we talk about gender-neutral 
standards--let me turn to that because nobody here is talking 
about lowering of standards. But there are some concerns that 
some of these standards that relate to performance necessary 
for the job may be unnecessarily high or inaccurate. We are not 
talking about lowering of standards.
    So my question is how are these standards validated. Who 
validates these standards for the Marines, for the Army? 
Secretary Mabus, would you like to respond to that?
    Mr. Mabus. The uniformed head of each service validates 
that they are occupationally relevant, that they are mission-
oriented, and that they are gender-neutral.
    Senator Hirono. I think, though, that may be difficult 
really to measure. So I think what I heard you saying is that 
the implementation and to make sure that these standards 
actually are required for a performance on the job, that there 
will be monitoring and reevaluation of these standards because 
one hopes that standards are somehow set by a neutral objective 
body.
    So in addition to the physical standards that must be met, 
I assume that in a combat situation, one also cares about 
things such as the mental state of the person or the judgment 
of the person. Are those part of the MOS standards?
    General Neller. The MOS standards for the entry level--
there is a basic general technical classification test score 
that you have to meet. And so when you go through your academic 
part of your training--and there is academics in any of these. 
Some for gunnery and artillery and tanks is very complicated. 
It involves mathematics and things. So there is an intellectual 
piece to this, and you are going to find out some people may be 
superior in this area. But at the basic level, at the entry 
level, whether it is an infantry platoon commander or a junior 
marine or soldier in a squad, the physical requirements that 
they have to perform are--you cannot ignore those facts.
    Now, as people become more senior, then it starts to 
balance out, and your ability to exercise judgment and your 
ability to make decisions--that may become more important, but 
it does not remove the requirement for the physical 
requirements that you have to perform.
    So to the point on who validates, we have looked at this. 
We have training commands who have an analyst and people that 
do this for a profession. We know exactly from every step what 
you have to do to load a Howitzer, to load a tank, to lift--you 
know, it is very mundane stuff, Senator, like, hey, you have to 
lift an artillery round that weighs 98 pounds up to the truck. 
So there are certain fundamental tasks to be part of a tank 
crew, a gun crew, to be in a rifle squad. And so those were the 
things that we looked at that we thought were the mission-
essential tasks to be effective in these MOS's. And we have had 
third parties look at this because we wanted to ensure that the 
standards were valid and they were not too high or too low.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    Actually I want to continue maybe along that line of 
questioning.
    One of the things that I have had in my discussions with 
some of you and others is that this process has been good and 
that it has really made you think about documenting and setting 
standards for things that you kind of knew you had to do but 
you had not articulated them. So that is healthy.
    And I have heard other discussions. And when we have looked 
at it, maybe we need to raise the standards a little bit. To 
what extent do we run the risk of being able to do that because 
it appears to be lessening or diminishing our opportunity to 
provide women more opportunities in combat positions, which I 
happen to support? General Neller, do you want to start with 
that?
    General Neller. Senator, I think the standards--I cannot 
speak for the Army, but I looked at their standards and their 
standards are different but they are also I think fairly 
demanding and would show a high probability of being able to be 
successful in any of these ground combat MOS's whether they be 
load-bearing MOS's or non-load-bearing.
    So whether they are too low or too high, we have done an 
analysis as to what is kind of the average. We are producing a 
large number of marines to do these things. In the Army, an 
even larger number. So we are looking for that point to where 
you have to do this in order to be effective and be effective 
within the team. And there are always going to be individuals 
that fall across the spectrum on that scatter chart.
    Senator Tillis. And, General Milley, maybe if you respond 
to that, you could share whether or not--as you are going 
through this and thinking about women having increasing 
opportunities in combat roles, can you think of any physical 
standards that you think should be lowered?
    General Milley. No, not physical standards.
    But let me make a comment on standards, though. I do not 
want anybody on the committee to think that either the Army or 
the Marines or the Navy or the Air Force did not have standards 
until we suddenly went through this. The United States Army has 
standards since Baron von Steuben showed up at Valley Forge. We 
are a standards-based Army. We are a standards-based military. 
Always have been. And they are written down and they are 
codified and we adjust them over time based on the realities of 
battlefield, new technologies, et cetera, et cetera.
    In this particular case, for infantry and armor, we have 
developed a new set of gender-neutral standards. And those are 
measured against one thing, neither male nor female. They are 
measured against the requirements of combat. And to answer 
Senator Hirono's comment, those have been rigorously reviewed. 
We will be glad to provide them. Peer-reviewed through all 
kinds of technical analysis. But we are definitely standards-
based. These are rigorous, and they will be fairly applied to 
both males and females.
    Senator Tillis. General Neller, the Marines have the entry-
level recruit training that is segregated I guess. It is on a 
glide path to be integrated. Do you believe that is a good 
idea?
    General Neller. I would not describe it as segregated. At 
entry level, at recruit training at MCRD [Marine Corps Recruit 
Depot] Paris Island----
    Senator Tillis. That is a great point
    General Neller.--we allow our female marines to train 
separately, and then as they get further into the training, 
they do more and more integrated training with the male 
recruits.
    Senator Tillis. What in your professional military opinion 
are the benefits of that approach?
    General Neller. Because of the data we have on the physical 
differential and because of the opportunity for these female 
recruits to be led by female drill instructors and female 
officers, they see females as role models. There is no 
distraction and they are allowed to compete. They see other 
women that can lead and compete. They get an opportunity to 
improve their physical fitness, and then that gives them an 
opportunity to gain some confidence before they would then be 
put in--is there going to be eventually--I mean, once they 
graduate as marines, every part of our training from marine 
combat training to our MOS training of the operational force is 
fully integrated, men and women serving side by side.
    Senator Tillis. Do you agree, as some do, that it sets them 
up to actually better compete for those positions as they 
progress through their training?
    General Neller. My personal view right now is at the 
beginning that initial part is critical and sets them up for 
success.
    Senator Tillis. And, Mr. Chair, I will just close with this 
comment. I would like to get from the Secretaries, given the 
work that has been done, the policy that is being implemented, 
some understanding of what the long-term cost could potentially 
be as we implement this program, anything from MILCON [military 
construction] costs to health care costs, a number of other 
factors. We have heard numbers about injury rates, a number of 
other things. I am assuming that that was looked at before the 
policy recommendations were put into place, and I would like to 
get that information. We will make a request to your agencies.
    Thank you.
    The information referred to follows:

    Mr. Murphy. We do not anticipate any significant increase in pay 
and allowances as a result of implementing gender integration. The 
Occupational Physical Assessment Test will ensure Soldiers have the 
proper physical aptitude for their military occupational specialty. The 
estimated cost for this testing is $2.1 million per year.

    Mr. Mabus. The Department of the Navy has identified the primary 
areas where costs will be incurred for complete integration. The DoN 
has fully integrated all previously closed occupational specialties in 
both the Navy and Marine Corps. Additionally, recurring costs of 
integrating the Submarine community are included. The two primary areas 
impacted by the decision to fully integrate women into the Armed Forces 
are the Marine Corps and the Naval Special Warfare community. Below are 
the estimated costs with integration of females within the Department 
of the Navy:

Submarines:

    <bullet>  Ohio-class
       $5.5 million non-recurring expense (planning)
       $6.6 million per ship ($5.4 million labor/$1.2 million 
material)

    <bullet>  Virginia-class (Block IV)
       $8.5 million non-recurring expense
       $1.5 million per ship
    <bullet>  Specific Los Angeles and Seawolf submarines will be 
evaluated for integration as demand for female billets dictate, on the 
basis of cost-effective privacy and berthing modifications over the 
remaining service life of the hull. With the expected construction of 
two Virginia-class submarines per year, the submarine force anticipates 
that the pace of integration will not exceed construction rate of the 
Virginia-class; making it unlikely that the submarine force will 
exercise the option of modifications to Seawolf or Los Angeles-class to 
sustain integration of women. Should modifications be deemed necessary, 
Navy will notify Congress per title 10 United States Code, section 
6035.

Naval Special Warfare (NSW):

    <bullet>  Basic Underwater Demolition/SEAL (BUD/S) barracks
       $175 thousand for security cameras and associated hardware, 
i.e.:
        - night vision IP cameras: $93 thousand,
        - data storage servers: $72 thousand, and
        - installation: $10 thousand

    <bullet>  San Clemente Island Facilities
        - $100 thousand for head/showers

    <bullet>  Minor berthing and head adjustments will be required to 
facilitate integration of women in NSW pipeline training. NSW officer 
candidates are able to reside off base, while enlisted members are 
housed in on-base facilities. NSW strives to provide privacy while 
minimizing segregation in order to optimize integration.

Marine Corps:
    <bullet>  Facilities Requirements
        - $977 thousand projects completed
        - $1.5 million projects remaining

Medical Costs:
    <bullet>  The extent to which healthcare is expected to increase or 
decrease is not known at this time and a lack of historical data on 
women's injury rates associated with the full integration of females in 
combat prevents estimation.

    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman, and thank you for 
holding this hearing.
    I want to thank all of the witnesses who are here today for 
your extraordinary service to our Nation and for your very 
thoughtful and insightful testimony today.
    In the military, as elsewhere, women are breaking down 
barriers and proving they are equally capable professionally 
and personally. And I happen to believe that our military will 
be made stronger by the policies that you are implementing, 
policies that are the result of planning an action that began 
in 2012, and our military will be made stronger as we open 
billets to women without lowering standards and without 
imposing quotas.
    And I think, Secretary Mabus, you made that point extremely 
well, and I am going to quote it again. Lowering standards 
would be unacceptable to every marine, especially those women 
who choose to compete for these positions. I think that is a 
very profoundly important point here, that women do not want 
standards lowered. They do not want outcomes dictated or quotas 
for positions. It is simply about equal access, in fact with 
higher standards not lower standards.
    And the other point that you made very well I thought, 
Secretary Mabus, is that this is not about women in combat. 
Women have been serving in combat and have been proving 
themselves in combat. In fact, they served, for example, in 
Iraq in the Lioness Program where female marines and soldiers 
volunteered to join combat troops at checkpoints and conducted 
outreach operations with Iraqi women. I remember listening to 
Admiral McRaven describe the role that women play with his 
special forces teams in both Iraq and Afghanistan. And I am 
very proud of the work that they have done in the Army as well. 
U.S. Army Special Operations Command created an all-woman 
cultural support team to work along with Green Berets and Army 
Rangers in combat zones. And just last year, women again proved 
they are capable of competing in combat positions by meeting 
the grueling gender-neutral standards required to pass Army 
Ranger Schools, including a native of Connecticut, Orange, 
Connecticut, Captain Kristen Griest.
    I want to ask a question that focuses on a different part 
of this process, as the ranking member of the Veterans Affairs 
Committee, whether we are doing enough to plan--both the 
Department of Defense and the VA [Veterans Affairs]--for the 
cooperation that is necessary to meet the needs of our women 
veterans after they leave the service. Connecticut just opened 
a women's health care center within the West Haven facility, a 
profoundly important step forward, but many facilities, 
hospital facilities and others, around the country have failed 
to provide those women-oriented health care centers. And they 
require specialties that are not present for men. So I would 
like to ask that question generally of this panel, whether 
there has been sufficient planning, what more should be done 
for our women veterans.
    Mr. Mabus. Well, Senator, as you very correctly pointed 
out, women have been serving for a long time with distinction 
and are becoming an ever-increasing part of our veterans 
community. And we owe all of our veterans that have served us 
so well that standard of care.
    And I think that speaking for the Defense Department, we 
are trying to make it more seamless as you leave the service 
and you move into the VA system. We are trying to make it an 
easier process, a process that does not put the members under 
stress. To a point that Secretary Murphy made a good bit 
earlier, now 18 percent of Navy is female. At the Naval 
Academy, this year it is 29 percent that are female, and it is 
going up every year. And so that is something we have got to 
pay very close attention to not only while people are in but as 
they transition back to civilian life.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. Thank you, Chairman.
    I want to thank each of you for your leadership and service 
to our Nation.
    I fully support giving women the opportunity to both meet 
and exceed the high standards set by each of our branches of 
the military. But as the chair of the Readiness Committee, what 
I would like as a commitment from each of you is that as we 
implement this policy, that we ensure that individual and unit 
standards are focused solely on combat readiness and nothing 
else. And I think the women of this Nation would want that. I 
think the women who are going to have the opportunity and who 
have served so admirably and defended this Nation already in 
combat would want that. So I want to make sure that I have the 
assurance of each of you that that will be the case.
    General Neller. Yes, Senator.
    Mr. Mabus. Absolutely.
    Mr. Murphy. Yes, ma'am.
    General Milley. Yes, Senator.
    Senator Ayotte. Thank you.
    I want to bring up an issue, when we talk about women 
serving in our military, that is really one that has bothered 
me, and that is that we have women guards who are guarding the 
prisoners and terrorists at Guantanamo. And they are women who 
are fully qualified, capable to guard anyone there. Yet, there 
has been a court order in place since January of last year for, 
in particular, the 9/11 terrorists that essentially says that 
the women who are guards there are not permitted to actually 
transport the 9/11 five to legal meetings and commission 
proceedings. And Senator Capito and Senator Scott and I went to 
Guantanamo. We met with the women guards there. And I can 
assure you what they told us is we just want to do our jobs.
    So as we are here having a hearing today on giving women an 
opportunity in all billets in the military, here we have a 
billet that women are already serving and yet there is a court 
order in place that I believe OSD [Office of the Secretary of 
Defense] has not stepped up aggressively enough to stand up for 
the rights of our women in the military to perform their jobs 
and that we have essentially let terrorists dictate terms that 
are completely unreasonable, not based on any religious views, 
even though they are claiming it. And your predecessor--not 
your predecessor but the former Commander of SOUTHCOM [United 
States Southern Command], General Kelly, was very upset about 
this, brought this to my attention. Previously Secretary Carter 
has been before this committee and also described this as 
outrageous.
    So I would like to know, especially General Milley--most of 
these women guards serve in the Army--and Secretary Murphy as 
well, but all of you, what do you think about this. And should 
we not be more aggressively standing up for the rights of our 
women in the military to do their jobs rather than what exists 
right now, which is the right of the 9/11 terrorists that are 
bogus in terms of the ability of our women to do their jobs in 
the military? So I want to get your comment on this.
    General Milley. I personally think it is ridiculous that 
these women are not allowed to do that job. I probably have 
other words that cannot be said behind this microphone right 
now about how I feel about that whole situation. I agree with 
you, Senator.
    Mr. Murphy. Senator, I concur with the Chief. And let me be 
clear. We do not take orders from the terrorists but there was 
a court order here and we take an oath to support and defend 
the Constitution.
    But I will tell you, ma'am, that I will go back--I am now 4 
weeks into this job. I will go back and meet with our general 
counsel, Mrs. Starzak, and look at this issue and report back 
to you.
    Senator Ayotte. I would appreciate it because I have been 
completely unsatisfied, having been a former prosecutor myself, 
with the level of defense that has been given and advocacy on 
behalf of our women in the military here. So I hope you will do 
that, please.
    Secretary Mabus?
    Mr. Mabus. I share exactly your words. It is outrageous. 
Women need to be able to do the jobs that they are qualified to 
do.
    General Neller. Senator, I agree with the rest of the 
panel.
    Senator Ayotte. Thank you all, and I do appreciate your 
willingness to pursue this, Secretary Murphy, because I think 
we can do a much better job for standing up for their rights as 
opposed to what is in place right now. To me, to let these 9/11 
terrorists dictate what our women in the military can do is 
outrageous. Thank you.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    We have had a lot of discussion about the Marine Corps' 
assessment, and I want to clarify something. I think we can all 
agree that the women who volunteered to do the Ground Combat 
Element Integrated Task Force assessment were exceptional in 
their willingness to participate in a study that they were not 
specifically trained for and did not have the experience 
necessary to actually compete in that study effectively.
    The design of the research overall was very flawed. First 
of all, these female marines were screened for the basic 
physical fitness test, but were competing in a large part with 
male marines who had years of experience and training and many 
of them in combat positions.
    Further, there was no bar that the groups competed had to 
meet. Rather, they were competing against each other. So all we 
really know from the study is that groups that had the right 
experience and training and more training did better. We do not 
actually have data that can be used because these women who 
were asked to participate did not have the same training and 
experience as those who had been doing it for a long time.
    And similarly, on the injury rates, for those women who did 
do this, they only had the basic standard PT [Physical 
Training] test. They did not do specific training to do these 
missions and to complete them.
    So I just want my colleagues to fully understand that this 
assessment is not designed to give us the data that we actually 
need. I think it is fundamentally flawed.
    So, Secretary Mabus, I would like your view on that, and 
then, General Neller, I would like your view on that.
    Mr. Mabus. When Secretary Panetta and Chairman of the Joint 
Chiefs Dempsey set us on this road, they said that the default 
position--that the assumption was that every position would be 
opened and that any sort of exception would have to be very 
narrowly tailored and would have to be based on job-specific 
individual standards.
    And the Marine test, as I have said here before, did one 
great thing that General Neller has talked about, and that is 
it codified the standards that each individual marine in a unit 
had to meet in order to get that MOS.
    But I think we have to focus on individuals. If an 
individual meets that standard, if an individual meets the 
gender-neutral, combat-specific, job-specific standard, then 
that person should get to do the job.
    Senator Gillibrand. Well, I just think that too many of the 
Senators who were listening to that summary of what the Marine 
study showed are having a misimpression. We are not comparing 
average women to average men. We are talking about 
extraordinary women. And if you look at the three women who 
just completed Ranger School, these three women are 
extraordinary women. And so if we were to assess can they do 
the job, yes, they can do the job. But again, to base too much 
or to rely too much on a study that did not have that level of 
training and rigor ahead of time so that they had the same 
experience, the same background, it is unfair to draw too many 
conclusions from it is all I want to say. I just hope you do 
not draw any conclusions.
    And also, no one mentioned the fact that when they actually 
tested for complex problem solving tasks, the mixed units did 
better. So there is an area where women are improving the 
results of these units.
    And we all know that combat is going to continue to become 
more and more complex over time. Warfare is going to continue 
to become more and more complex over time. So please do not 
lose sight of the assets that these extraordinary women are 
going to bring to your missions. They have skills beyond what a 
typical marine may have. And so that is going to enhance what 
you will be able to do long-term.
    General Neller, I would love your thoughts too.
    General Neller. Well, Senator, first of all, I think it 
would be unfair to any of those marines, but particularly the 
females that participated in the GCEITF, to say they were not 
trained. They all went to MOS school, and so they received and 
have now received the MOS whether it is infantry, artillery, 
armor.
    When I look at their physical data, the male PFT, pretty 
consistent. The one differential was in pull-ups. But as you 
said, these were exceptional female marines. They did not have 
to do this. They volunteered. They did our Corps, our country a 
great service, and we owe them a debt of gratitude. And that is 
one of the reasons their unit received a meritorious unit 
accommodation at the conclusion of their training.
    Now, after they went to the MOS training, they formed into 
this Ground Combat Element Task Force for 4 months of 
preparatory training where they trained with men and developed 
the skills that they needed to go do this evaluation.
    Senator Gillibrand. But the 4 months does not compare to 
the years that a lot of these units had been already working 
together doing this MOS.
    General Neller. None of these marines had been in this 
unit. This was a formed unit. But it is fair to say--I will 
agree with you--that their experience in these MOS's was 
probably not up to the level of their male counterparts. But in 
every other standard that I can tell, I would say that they 
were as good, if not better, in overall quality in their 
service as their male marine counterparts.
    Senator Gillibrand. Thank you.
    Chairman McCain. So do you believe that the study was 
fatally flawed?
    General Neller. Sir, I do not. We have had the study peer-
reviewed by numerous groups.
    Chairman McCain. So you think it was a legitimate study.
    General Neller. Within the time we had, yes, Chairman.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman. I appreciate the 
hearing.
    I appreciate all of you testifying today on a very, very 
important issue, but I think from your testimony and the 
questions you are seeing from the members of this committee, it 
is certainly not an easy issue.
    You are talking about schools. I happen to have been 
through the Marine infantry officer course, a recon school, 
SERE school. These are very difficult schools that most men 
have a hard time with because it is about a tough profession.
    I think Sergeant Major LeHew, when he was talking about 
this recently, the Marine Corps sergeant major put it very 
succinctly. In regards to infantry, there is no trophy for 
second place. You perform or die. Serious, serious discussion 
here.
    And I am a Marine infantry officer but like General Neller 
mentioned, I am also someone who has three daughters, three 
teenage daughters. All their lives, my wife and I have been 
telling them that if they work hard, earn something, that they 
should be able to do anything anyone else does--anyone.
    So I support the opportunity for women to serve in any 
capacity in the military as long as the standards are not 
lowered. And I think you are seeing that as a consensus here.
    One thing that has not been talked about enough--I want to 
talk a little bit about the process. We know that Secretary 
Panetta allowed the services to request an exemption, and after 
thorough study with hundreds of marines and men and women 
serving gave their all to put together a study.
    Secretary Mabus, I have to tell you I have been very 
disappointed in terms of the process, how you have dealt with 
the Marine Corps' desire to look at this really difficult 
issue. As soon as the Marines published their study, within 24 
hours of this 1,000-page study, you came out and said you saw 
no reason for an exemption. Did you read the study?
    Mr. Mabus. Senator, what I said, I said countless times, 
since the time that Secretary Panetta and Chairman Dempsey had 
set us on this path, that the presumption was that we were 
going----
    Senator Sullivan. You said I do not see any reason for an 
exemption the day after the study was published. Based on what?
    Mr. Mabus. The conclusions.
    Senator Sullivan. Did you read the study?
    Mr. Mabus. I have read the study.
    Senator Sullivan. Did you read the study before you stated 
that?
    Mr. Mabus. I had read the conclusions that the Marines drew 
from the study prior to that, and those conclusions which were 
based on averages and not on individual marines----
    Senator Sullivan. Let me ask another question related to 
the study. And Senator Gillibrand just talked about it. You 
then implied that the women marines involved in the study were 
not the top-flight marines. General Neller I think just said 
that was not the case.
    And then on public radio, you essentially told the American 
people that the Marines were not looking at this in an 
objective manner. You said, ``it started out with a fairly 
large component of the men in the Marine Corps thinking that 
this is not a good idea and women will never be able to do 
this. When you start out with that mindset, you are almost 
presupposing the outcome.'' I think the only person 
presupposing the outcome in this entire process was you.
    General Neller, were you presupposing the outcome on this 
after millions of dollars and hundreds of marines to put 
together this report? Is that what you were doing, sir?
    General Neller. We were all waiting for the results of the 
study, but I think we had been out and visited and we had seen 
some things. But there was a lot of analysis that had to be 
done, and it was a short period of time. No, I was not 
presupposing it.
    Senator Sullivan. Let me just make another point. I think, 
Secretary Mabus, for whatever reason you have seemed agitated, 
annoyed about what the Marines have been doing about their 
study--your public statements. And yet, they were the only 
service, as far as I can tell, doing the hard research on a 
very, very difficult issue. To me it seems like you might want 
to think about complimenting the leadership of the Marine Corps 
as opposed to implying that they were not taking this 
seriously. They were clearly taking it seriously. In my view, 
they were probably the service that was taking it the most 
seriously.
    Let me ask one final question that relates to this. On 
January 1, you directed the Marines to come up with a detailed 
plan to integrate boot camp within 15 days. Now, I am a little 
biased here, but I think it is commonly known that the Marine 
Corps probably has the best basic training of any service in 
the United States military, probably any service in the world.
    I have been on this committee for a year. I do not think I 
have seen a more outrageous or ill-advised order from a service 
secretary to tell the Marines that they are going to take boot 
camp, which has been honed and put together for the benefit of 
the American people over decades--and you are going to tell 
them and order them to get a detailed plan in 15 days. Is that 
even remotely possible? And why did you issue such an order 
when nobody on this committee thinks that that was remotely 
possible to integrate boot camp? Did you read the Kassebaum-
Baker report, unanimous committee?
    Mr. Mabus. Senator, it was not only possible, but the 
Marines met that. They had been working on this for months and 
years----
    Senator Sullivan. Did you read the Kassebaum----
    Mr. Mabus.--how boot camp is organized. And you will be 
happy to know, Senator, that they met that deadline. They fully 
briefed me on January 14th and came up with----
    Senator Sullivan. That is because the Marines are a can-do 
organization, Mr. Secretary.
    Mr. Mabus. The Marines are an incredibly capable 
organization. I am in awe of the Marine Corps and of individual 
marines and the sincerity and the service and the work that 
they have done on behalf of this country. And as I said in my 
opening statement, it is the greatest honor of my life to lead 
the United States Marine Corps and the United States Navy.
    What we have come to, because the Marines did such a good 
job of coming up with this, is the Marines have developed a 
very deliberate plan, a very ordered plan to begin to look at 
lessons learned and how they can more fully integrate boot camp 
to give us better marines, which they have done. As Commandant 
Neller and I have talked about several times, boot camp has 
changed over and over and over again and always with the same 
aim and that is to make better marines, to make a better Marine 
Corps, and have a more lethal, more effective Marine Corps.
    Senator Sullivan. How does your order square with the 
Kassebaum-Baker unanimous committee recommendation on the 
integration of our boot camps in the military?
    Mr. Mabus. Well, Senator, I looked at all sorts of reports, 
but I also have gone on my almost 7 years----
    Senator Sullivan. It does not. Does it? I mean, it directly 
contradicts the unanimous recommendation of that committee. 
Right? Just for the record.
    Mr. Mabus. I think that is a completely irrelevant point, 
Senator.
    Senator Sullivan. It is not irrelevant.
    General Neller, do you think in your professional opinion 
having 14 days, because--you probably did not take the day off 
on New Year's Day because you got an order and you were 
probably working on it. Do you think having 15 days to put 
together a detailed plan to integrate the Marine Corps boot 
camp, an issue that has been studied, debated, on one of the 
most incredibly important institutions in not only the Marine 
Corps, in my view the United States military--do you think that 
was a reasonable request? It sounds like you did it, which does 
not surprise me. That is the Marine Corps ethos. Was that a 
legitimate request to do that within 14 days, one of the 
biggest issues I am sure the Corps as an institution has been 
struggling with for years--14 days to do that?
    General Neller. Senator, what we did is we briefed the 
Secretary on how we do recruit training, and in part of that 
discussion, I believe--I am not going to speak for him, but he 
understands and has a better view of why we do it the way we do 
it. And as he stated, part of that discussion is that we are 
always trying to get better, and we will continue to look at 
ways that we can further improve recruit training.
    Chairman McCain. You are not answering the question, 
General. You are not answering Senator Sullivan's question. 
Repeat the question.
    Senator Sullivan. Was it a reasonable order, given the 
years and years and years that the Marine Corps has been 
looking at this and studying this and committees like the 
Kassebaum-Baker unanimous committee said it was not a good 
idea, to have 14 days to come up with a, ``detailed plan to 
integrate Marine Corps boot camp?'' I just think it was 
outrageous, but I am wondering in your professional military 
judgment.
    General Neller. When we briefed on the 14th, we did not 
provide a plan of fully integrated recruit training but talked 
about how we do conduct recruit training.
    Chairman McCain. Well, it is unfortunate.
    Your time has expired.
    You know, Secretary Mabus, this would have been a lot 
easier if you had not called in the press immediately and 
debunked what many of us view was a legitimate study without 
even reading it, and I do not believe that you read a 1,000- 
page document in one day. I am sorry. But I do not believe it. 
And so your handling of this issue has really complicated the 
whole situation for those of us who fully support the 
integration of women in the military. It was done on a 
peremptory, ``go to the media first'' fashion.
    General Neller, I would just like to ask. Do you want to, 
for the record, articulate the concerns that you have about 
this entire evolution?
    General Neller. Senator, there are a lot of concerns that 
we have talked about, and General Milley articulated them. 
There are a lot of things we do not know.
    I will tell you that one of my biggest concerns is that the 
perception, which is totally inaccurate, that the Marine Corps 
does not value the service of the females that serve in the 
Marine Corps. As I stated earlier, we are looking at how we can 
increase the number of females in the Marine Corps. This is 
about combat effectiveness. This is about health and welfare of 
the force. This is about talent management, putting every 
marine in the place where they can best contribute.
    So we have been given an order to integrate. We have, we 
believe, a fully detailed plan to integrate. We are going to 
give every marine the opportunity to compete. We have the 
standards that we think will allow them to be successful.
    Chairman McCain. I asked if you had concerns, General.
    General Neller. I have concerns about retention. I have 
concerns about injury rates. I have concerns about propensity 
to reenlist, career progression. I have concerns about what is 
going to happen if the numbers are low, which they probably 
will be at the beginning. But I think the plan that we have--
again, I have concerns about things I do not know what the 
answers are going to be too, Chairman. But I think we have a 
plan in place where we can monitor that. And I would ask that 
we continue to be required to come back to this committee and 
report on how we are doing on implementation.
    Chairman McCain. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman.
    Senator, so I believe that Kassebaum report was done in 
1997.
    Senator Sullivan. I believe it was 1998.
    Senator Reed. 1998. So we are looking at an evolving 
situation. I just want to make that clear in terms of reference 
to the report.
    The final point I want to make is that what I have 
discerned from the entire panel is this is going to be a very 
careful, orchestrated, multiyear process, which will be 
reviewed, should be reviewed, should be reported back to the 
committee, and that the ultimate test will be the effectiveness 
of units. And that rationale is because that is what makes 
Marine regiments work, its platoons, companies, battalions that 
function, and that will be the test. And I think unless anyone 
disagrees with me, I will conclude with that point.
    Chairman McCain. I thank the witnesses.
    The hearing is adjourned.
    [Whereupon, at 12:38 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
  use of involuntary separation to achieve budget driven end strength 
                               reductions
    Eric Fanning wrote in his nomination hearing two weeks ago, 
``Without any future increases to the budget, in order to achieve an 
[active component] end strength of 450k by 2018, a reduction of 40k 
soldiers, the army will require approximately 14k (35 percent) 
involuntary separations.''

    1. Senator Ayotte. Secretary Murphy and General Milley: What number 
of those 14,000 soldiers who the Army will have to order to leave the 
service involuntarily will be well-preforming individuals who are not 
retirement eligible?
    Mr. Murphy and General Milley. A board process is used to determine 
those Soldiers and officers selected for separation, therefore it is 
impossible to predict the outcome of the selection process. However, 
the Army projects that 75-85 percent of the involuntary separations 
will not be retirement eligible. The largest programmed losses are 
officer losses. Those losses will be determined via promotion 
selectivity targeting younger year groups from the ``Grow the Army'' 
years 2007-2011.

    2. Senator Ayotte. Secretary Murphy and General Milley: Is it safe 
to say that many or most of those soldiers will have deployed to Iraq 
or Afghanistan at least once or twice?
    Mr. Murphy and General Milley. Yes. Of the personnel selected by 
involuntary separation boards, approximately 95 percent have deployed 
at least once for 30 days or greater. This includes over 500 Captains 
and 260 Majors with more than 18 months deployment time. We are 
committed to treating every Soldier with dignity and respect, 
recognizing their service and sacrifice.

    3. Senator Ayotte. Secretary Murphy and General Milley: Will you 
continue to do everything in your power to minimize the use of 
involuntary separations for well-preforming service members--especially 
those not eligible for retirement?
    Mr. Murphy and General Milley. Yes. The Army uses an iterative, 
systematic, and flexible personnel drawdown plan to achieve future 
force structure requirements. Involuntary separations are only used 
sparingly and as necessary to supplement routine attrition to achieve 
targeted endstrength goals and timelines.

    4. Senator Ayotte. Secretary Murphy and General Milley: Will you 
let me and my staff know if there is anything I could do to assist you 
in that effort?
    Mr. Murphy and General Milley. At this time, we believe we have all 
of the necessary authorities to execute the drawdown, however, we will 
engage with you and your staff if future needs arise.

    5. Senator Ayotte. Secretary Murphy and General Milley: Do you 
commit to fully complying with section 592 of the FY2016 NDAA?
    Mr. Murphy and General Milley. Yes, the Army continues to be in 
compliance with the reporting requirements of Section 592 of the FY16 
NDAA and commits to remaining so.
                               __________
              Questions Submitted by Senator Jeff Sessions
                          combat effectiveness
    6. Senator Sessions. Secretary Mabus and Secretary Murphy, if it is 
demonstrated by objective data that this new policy lessens the combat 
effectiveness of our combat forces in any way, will you amend this new 
policy?
    Secretary Mabus. Every decision I make is in support of maximizing 
combat effectiveness. The Department of the Navy is committed to 
sustaining and improving combat effectiveness through systematic 
application of standards. As part of its recent study, the Marine Corps 
established standards required to maintain combat effectiveness; 
therefore, anyone who meets those standards will--by definition--
maintain or enhance combat effectiveness. The Department's ability to 
put the best and most capable Sailors and Marines in the military 
occupations for which they are most qualified increases the overall 
combat readiness of our force. Integration of women in our military has 
enhanced combat effectiveness by running convoys and security patrols, 
flying close air support missions, leading engineering platoons. They 
have performed exceptionally on the front lines in places like 
Fallujah, Ramadi and Sangin. As we access women into newly opened 
positions we will continue to carefully evaluate--as we always do--the 
combat effectiveness of our forces and make decisions that best support 
our Sailors and Marines.
    Secretary Murphy The Army is committed to maintaining and enforcing 
rigorous combat readiness standards. We anticipate that the full 
integration of women will maintain or improve the Army's overall 
readiness. The Army cannot compromise combat readiness and 
effectiveness for any reason whatsoever. Our Army leaders will continue 
to assess and ensure that our standards in combat readiness are 
maintained. If at any time we see combat effectiveness or readiness 
decline or deteriorate by objective data then we will advise the 
Secretary of Defense and this committee and provide our recommendations 
on any policy changes required.
                          combat effectiveness
    7. Senator Sessions. General Milley and General Neller, in your 
professional military judgment, will this new policy improve the combat 
effectiveness (i.e., Lethality) of our forces?
    General Milley. Yes. We believe the full integration of women in 
all career fields will maintain, sustain, or improve the overall 
readiness of the United States Army and the capability of our force, 
if, and only if, we maintain and enforce rigorous combat readiness 
standards. We remain a standards- and merit-based, results-oriented 
organization, and we apply no quotas.
    General Neller. The combat readiness and effectiveness of our force 
is always our principal area of focus. As with any new policy, it would 
be premature to make a prediction regarding its outcome. We believe we 
have an appropriate overarching plan in place to both implement the new 
integration policy and, equally important, assess the effects of 
integration, especially regarding future combat effectiveness. We will 
be prepared going forward to provide more detailed data regarding the 
effects of this new policy on combat effectiveness, whether positive or 
negative.
                               __________
           Questions Submitted by Senator Kirstin Gillibrand
                              recruitment
    8. Senator Gillibrand. General Milley and General Neller, now that 
we have opened up combat positions to women, we must turn our attention 
toward ensuring that women are successful in these positions. One way 
to reach this goal is to improve our recruitment strategies for women 
by targeting those that are most likely to meet the rigorous demands of 
combat positions, such as the captain of the lacrosse or rugby team. 
Has your service developed a targeted strategy for identifying and 
recruiting the best women for combat MOSs?
    General Milley. Opening up all positions provides opportunity and 
access for top talent who meet the standards. Now with OSD approval of 
our implementation plan, we have initiated a deliberate and methodical 
approach to identify and recruit the very best.
    General Neller. The Marine Corps attracts and recruits the best 
qualified and eligible individuals in order to meet Total Force 
manpower requirements. In keeping with our ethos of ``every Marine a 
rifleman,'' all Marines, both enlisted and officer, male and female, 
have been trained in basic infantry tactics for many years. Therefore, 
we believe our current recruiting and advertising methods will yield 
high quality women who are eligible to serve in combat arms MOS's. The 
Marine Corps continues to partner with the Women Basketball Coaches 
Association, the Female Coaches Leadership Workshop, and female 
leadership forums at our annual Summer Leadership and Character 
Development Academy. Additionally, we conduct twelve workshops annually 
at each of our Recruit Depots to provide educators, coaches, and key 
influencers an opportunity to immerse themselves in Marine culture. 
Similarly, at the college/university-level, influencers come to 
Quantico, Virginia to learn about officer opportunities. Finally, we 
will continue to use current research and assessment data to actively 
monitor propensity and other market indicators that shape future 
advertising initiatives to reach female population groups, and to plan 
and execute advertising initiatives to spread awareness of Marine Corps 
opportunities to female audiences. Examples of this include: updated 
digital and web properties to reflect new female opportunities, plans 
to execute a female web/digital campaign, and to create a female Marine 
enlisted brochure.
                       integrated basic training
    9. Senator Gillibrand. General Neller, the Marine Corps is the only 
service to conduct segregated basic training for recruits. What are the 
plans to integrate basic training in order to better prepare women for 
full participation in the Corps, along with their male counterparts and 
to prepare their male counterparts to serve alongside them?
    General Neller. The Marine Corps is currently executing the Marine 
Corps Integration Implementation Plan (MCIIP) in response to SECDEF 
direction to integrate all Military Occupational Specialties (MOS's) 
without exception as soon as practical after 2 Jan 2016 but no later 
than 1 Apr 2016. Under the guidance of the DEPSECDEF and Vice Chairman 
of the Joint Chiefs of Staff and their Implementation Group, the Marine 
Corps must ensure that implementation is pursued with the clear 
objective of improved force effectiveness. Implementation must also 
delineate transparent standards, consider the effect of a small female 
population, contemplate the physical demands and physiological 
differences between men and women, examine the conduct and culture as 
it exists and how it will change, ensure best practices in talent 
management, consider the ability to operate abroad, and assess and make 
in-stride adjustments as necessary.
    On 14 Jan 2016, SECNAV was briefed on the current methodology of 
gender integration at Marine Corps Recruit Depots and Officer 
Candidates School; specific points of integration in training were 
identified, as were the areas where training is separate and how that 
approach contributes to the development of Marines, and how the Marine 
Corps has and will continue to evaluate the best ways to train Marines 
in execution of the integration plan. In a Memorandum for the 
Commandant of the Marine Corps dated 29 Jan 16, SECNAV stated that the 
Marine Corps has fully met the requirements of his 1 Jan 2016 memo 
regarding integration of basic training.
    As always, the Marine Corps will continue to evaluate its entry 
level training process to ensure we produce the nation's finest 
Marines.

    10. Senator Gillibrand. General Neller, what is the timeline for 
integrating basic training for recruits?
    General Neller. The Marine Corps has not set a timeline for further 
integrating recruit training, but we always assess our processes to 
ensure we continue to produce the nation's finest Marines. Currently, 
61 percent of our recruit training is integrated, but all training is 
conducted using a common 70-day program of instruction for all 
recruits. We believe the areas where we separate men and women in the 
early days of recruit training provide a significant benefit which 
allows individuals to better deal with the initial adjustment to 
military life and provides leaders/mentors of the same gender to assist 
this transition.

    11. Senator Gillibrand. Secretary Mabus, what benefits have you 
seen in the Navy from men and women training side-by-side?
    Secretary Mabus. From day one, Sailors serve in environments that 
have men and women serving together. Immediately, they begin to 
establish the unit cohesion integral to mission accomplishment. 
Starting everyone in this environment ensures a diversity of 
perspectives is established initially and eases the transition from 
training to an operational environment. The training environment 
mirrors the operational environment, enhancing teamwork, camaraderie, 
and combat effectiveness.
                          integration strategy
    12. Senator Gillibrand. Secretary Mabus, what lessons can we learn 
from the Navy in integrating women into combat roles?
    Secretary Mabus. Navy has successfully integrated women into 
aviation, surface ships, submarines, and riverine forces, as well as 
other small, high-risk operations teams, such as Explosive Ordnance 
Disposal and Navy Divers. We know how to integrate--it starts on day 
one of training with leadership reinforcement of team building 
behaviors. Several lessons from years of successful integration have 
revealed that leadership, transparency, enforcing consistent standards 
for both men and women, and professionalism are keys to successful 
integration. Four key lessons:

    <bullet>  Female Sailors want to be held to the same occupational 
and performance standards.
    <bullet>  Female Sailors perform better when there are female 
service members in a peer group or present in the training or 
leadership cadre to provide support and interaction among Sailors and 
with other leaders (instructors, officers, and chief petty officers).
    <bullet>  As recently seen in the Submarine Force, when female 
service members are assigned to previously male-only occupations or 
commands, male service members' initial concerns about integration are 
dispelled after they have an opportunity to train and work together. 
Additionally, Navy has found top-down leadership is key to ensuring 
junior enlisted Sailors and leadership receive a strong, consistent 
message of support for female integration from their commanding 
officers and other senior leaders.
    <bullet>  It is important to keep in mind factors that can affect 
how quickly females will access into previously male-only occupations, 
especially at the senior levels. Due to the training requirements, 
technical nature of the roles, and the timeline for leadership 
development, it typically takes 15-20 years from the time an officer 
receives a commission to the time she or he becomes a senior officer.

    13. Senator Gillibrand. Secretary Mabus, what strategies has the 
Navy found successful in integrating women into combat roles?
    Secretary Mabus. Navy has successfully integrated women into 
aviation, surface ships, submarines, and riverine forces, as well as 
other small, high-risk operations teams, such as Explosive Ordnance 
Disposal and Navy Divers. We know how to integrate--it starts on day 
one of training with leadership reinforcement of team building 
behaviors. Navy has found the following strategies to be successful in 
integrating women into combat roles: Top-down leadership, transparency, 
enforcing consistent standards for both men and women, developing 
female peer group(s), professionalism, and ensuring formalized 
implementation plans address areas of concern, mitigating factors, and 
milestones with regular assessments and adjustments as necessary.

    14. Senator Gillibrand. Secretary Mabus, Secretary Murphy, General 
Milley, and General Neller, women are currently underrepresented among 
general officers. What kind of message does that send to our service 
women?
    Secretary Mabus. The composition of the current generation of flag 
and general officers starkly portrays to all service members how 
opportunity was limited when the occupations and assignments critical 
for selection to the most senior leadership positions were closed to 
women. This is one of the reasons I strongly support the Secretary of 
Defense decision to open all military occupational specialties and 
positions, regardless of gender. It is important to keep in mind 
factors that can affect how quickly females will access into previously 
male-only occupations, especially at the senior levels. Due to the 
training requirements, technical nature of the roles, and the timeline 
for leadership development, it typically takes 15-20 years from the 
time an officer receives a commission to the time she or he becomes a 
senior officer. The Services will continue to apply validated 
operationally-relevant and objective standards for all career fields. 
The Department of the Navy is committed to building a force 
representative of the nation it defends.
    Secretary Murphy and General Milley. The Army has 57 female general 
officers in the Total Force to include five three-star generals on 
active duty. The opening of infantry and armor will provide a greater 
opportunity for women to become general officers, since 83 percent of 
our currently serving four-star generals came from infantry or armor 
branches.
    General Neller. In 2015, two of 92 active and reserve Marine Corps 
general officers are female. Female officers tend to retire or 
otherwise voluntarily exit the Marine Corps sooner than their male 
counterparts, well before encountering opportunities that would put 
them on the path to general officer. Those female officers who decide 
to remain in the Marine Corps are as competitive as their male peers 
for promotions and command opportunities. The Marine Corps is dedicated 
to better understanding retention challenges for female officers in an 
effort to increase senior female officer representation.

    15. Senator Gillibrand. Secretary Mabus, Secretary Murphy, General 
Milley, and General Neller, what are you going to do to ensure that 
women can achieve leadership roles?
    Secretary Mabus. The Department of the Navy ensures that all 
Sailors and Marines, regardless of gender, receive the finest training 
and preparation for challenging and rewarding opportunities and 
assignments that make them competitive for senior leadership roles. 
Secretary Carter's recent decision creates even more opportunities to 
compete for command and leadership billets within newly-opened 
occupations and units. The Department of the Navy is committed to 
building a force representative of the nation it defends.
    Secretary Murphy and General Milley. With the opening of combat 
arms, the Army remains committed to all those who can meet the standard 
being given the opportunity to achieve their full potential, regardless 
of gender. We remain a merit-based, results-oriented organization.
    General Neller. Female Marines are, and have been, leaders 
throughout the Marine Corps. We currently have three Colonel and 13 
Lieutenant Colonel females in command of units across our Corps. 
Secretary Carter's recent decision creates future opportunities for 
female Marines to compete for additional command and leadership billets 
within newly-opened ground combat MOSs and units. Furthermore, we are 
improving our talent management practices to ensure the best career 
paths for all Marines. We are also taking this opportunity to address 
unconscious bias, dispel misconceptions and ensure full understanding 
of my expectations for inclusion and respect of all Marines via an 
Integration Education Plan that will be executed across the entire 
Corps. In combination, I expect all these factors to further facilitate 
female Marines in leadership roles.

    16. Senator Gillibrand. Secretary Mabus, Secretary Murphy, General 
Milley, and General Neller, what plan do you have to incorporate women 
into officer positions?
    Secretary Mabus. The Department of the Navy is committed to 
implementing progressive reform proposals to keep the military 
competitive and enhance force readiness while removing barriers to 
maintaining and strengthening our nation's Navy-Marine Corps 
warfighting team. The plan to incorporate women into officer positions 
includes evaluation of the training and education that we provide at 
every level, from recruits and officer candidates to the highest levels 
of leadership. Recruiting, retaining, and advancing talented women is 
paramount while maintaining adherence to operationally-relevant and 
objective standards.
    Secretary Murphy and General Milley. Our plan is based on a 
``leaders first'' strategy. To ensure success, we will follow a 
deliberate and methodical approach that begins with the assessment, 
selection, training, and assignment of female infantry and armor 
leaders, both officers and NCOs. Once that leadership is in place, we 
will begin the assignment of junior enlisted Soldiers.
    General Neller. Currently 7.1 percent of our Active Component 
officer population is female. Since 2009, the accession of female 
officers has increased, reaching 11.6 percent in 2014. It is projected 
to be 10 percent this year. It is critical to understand that the 
propensity for women to choose the Marine Corps is low compared to the 
other Services. Fear of serious injury or death is the most often 
stated reason for not wanting to join the military for women ages 16-
21. Beyond a low propensity to join the Marine Corps, we understand 
that retention of our female officers is a challenge. Addressing the 
fact that female officers exit the Marine Corps sooner than their male 
counterparts due to injury, other career opportunities, or family 
reasons is a component of my talent management strategy.

    17. Senator Gillibrand. Secretary Mabus, Secretary Murphy, General 
Milley, and General Neller, are you considering mentorship programs to 
help with women's career progression and retention?
    Secretary Mabus. Department of the Navy encourages participation in 
professional networking groups such as Lean-In Circles and leadership 
symposiums for women. Additionally, current unit mentoring programs 
enhance career development and improve retention. We continuously seek 
ways to improve mentorship, job satisfaction, career development, and 
retention of Sailors and Marines, regardless of gender.
    Secretary Murphy and General Milley. Yes. Our ``leaders first'' 
strategy relies on mentorship from both male and female leaders. All 
Army leaders are expected to mentor their junior officers and enlisted 
Soldiers. Leadership is critical to integration. We will enable our 
leaders with a comprehensive and deliberate education plan to enhance 
our integration efforts and ensure our future combat arms women will 
have the opportunity to successfully compete and progress in their 
career fields.
    General Neller. Marine Corps Order 1500.58 MARINE CORPS MENTORING 
PROGRAM (MCMP) establishes the policy, format, and guidelines to 
formalize previously informal relationships to help Marine leaders 
improve their ability to interact with their Marines on a personal and 
professional level. The MCMP provides the tools to help Marines to set 
goals to improve individual and team performance, and closely replicate 
at home station the relationships forged between Marines and leaders in 
combat. This construct remains in place and is an integral part of our 
``Integration Education Plan.''
                               retention
    18. Senator Gillibrand. Secretary Murphy and Secretary Mabus, I'm 
also very interested in ensuring that, once we recruit these high-
quality women, we retain them. Policies that support families, such as 
paid family leave, are key to showing women that the military can be a 
viable career for them. I believe our service members should be 
afforded the same leave policies that civilians have, and I was 
thrilled when, last week, Secretary Carter announced that all women 
could receive 12 weeks of maternity leave. However, there is still more 
to be done, such as providing leave for service members caring for a 
sick family member and extending leave for fathers and adoptive 
parents. Are you committed to policies such as paid family leave that 
support not just our women, but also our men in service and what are 
your services plans to implement these policies?
    Secretary Murphy. Yes, I am committed to supporting all Army 
families. All Soldiers currently earn 30 days of paid leave annually. 
In addition to the recently announced 12 weeks maternity leave, 
Secretary Carter announced that he would seek Congressional authorities 
to expand paternity leave to 14 days.
    Secretary Mabus. As our nation continues to draw upon the great 
talents of our Sailors and Marines, we are bound to create an 
environment that provides the flexibility needed to retain our highly 
trained and skilled workforce. Important characteristics of this 
environment are policies that support our service members and their 
families. The Department of the Navy (DON) introduced several 
initiatives to support work-life balance, including extended maternity 
leave for new mothers, expansion of child care development center 
operating hours, and strengthening dual-military co-location. The 
Department of Defense also intends to seek to expand paternity leave to 
14 days and to expand adoption leave. The DON has advocated for 
department wide authorities in these efforts.
                                 socom
    19. Senator Gillibrand. Secretary Murphy and Secretary Mabus, the 
plan submitted by Special Operations Command to Secretary Carter 
asserts that recruiting, assessing, and training special operators is 
the responsibility of the components and the Services. Does your plan 
describe how you will recruit, assess, and train service women into 
special operations career fields?
    Secretary Murphy. Yes. The plan includes how the Army will recruit, 
assess, and train service women into special operations career fields. 
The Army and USSOCOM have closely coordinated over the past 3 years and 
all required actions have been or are being implemented. Active 
recruitment has begun upon our release of the Army execute order, 
following Secretary of Defense's approval of our implementation plan.
    Secretary Mabus. Yes; recruiting, accession and training will 
ensure that each candidate meets validated, operationally-relevant, 
gender neutral standards for selection and assessment in training 
pipeline courses to qualify in Naval Special Warfare/Operations and 
United States Marine Corps Forces Special Operations Command (MARSOC) 
career fields.

    20. Senator Gillibrand. Secretary Murphy and Secretary Mabus, can 
you describe the timing of your efforts to recruit, assess, and train 
female special operators?
    Secretary Murphy. The Army is prepared to recruit, assess, and 
train female special operators. Active recruitment has begun upon our 
release of the Army execute order, which has followed Secretary of 
Defense's approval of our implementation plan.
    Secretary Mabus. We are actively engaging with potential candidates 
who are interested in the program. Candidates undergo some of the most 
mentally challenging and physically demanding training in the world. 
Training routinely exceeds 43 weeks from entry into Naval Special 
Warfare Preparatory School until entry into Sea Air Land (SEAL) 
Qualification Training, which is designed to provide candidates with 
the core tactical knowledge needed to join a SEAL platoon.
    Marine Special Operations Command (MARSOC) is actively screening 
female Marines who volunteer for Assessment and Selection (A&S). The 
next A&S is scheduled to begin in August 2016 and is rapidly filling 
with qualified candidates. Upon selection at A&S, the female selectees 
will be slated for attendance at the Individual Training Course which 
is scheduled to commence in January 2017.

                                 [all]
</pre></body></html>
